<html>
<title> - OVERSIGHT OF U.S. EFFORTS TO TRAIN AND EQUIP POLICE AND ENHANCE THE JUSTICE SYSTEM IN AFGHANISTAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  OVERSIGHT OF U.S. EFFORTS TO TRAIN AND EQUIP POLICE AND ENHANCE THE 
                     JUSTICE SYSTEM IN AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2008

                               __________

                           Serial No. 110-185

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-638                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
------ ------
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 18, 2008....................................     1
Statement of:
    Johnson, Charles Michael, Jr., Director, International 
      Affairs and Trade, U.S. Government Accountability Office; 
      and Frank Ward, Office of the Inspector General, U.S. 
      Department of State, accompanied by Erich Hart, General 
      Counsel, U.S. Department of State..........................     6
        Johnson, Charles Michael, Jr.............................     6
        Ward, Frank..............................................    31
    Johnson, David T., Assistant Secretary, Bureau of 
      International Narcotics and Law Enforcement Affairs, U.S. 
      Department of State; Major General Bobby Wilkes (retired), 
      Deputy Assistant Secretary of Defense for South Asia, 
      Office of the Secretary of Defense, U.S. Department of 
      Defense; Mark Ward, Senior Deputy Assistant Administrator, 
      ASIA Bureau, U.S. Agency for International Development; and 
      Bruce Swartz, Deputy Assistant Attorney General, Criminal 
      Division, U.S. Department of Justice.......................    66
        Johnson, David T.........................................    66
        Swartz, Bruce............................................   105
        Ward, Mark...............................................    96
        Wilkes, Bobby............................................    85
Letters, statements, etc., submitted for the record by:
    Johnson, Charles Michael, Jr., Director, International 
      Affairs and Trade, U.S. Government Accountability Office, 
      prepared statement of......................................     9
    Johnson, David T., Assistant Secretary, Bureau of 
      International Narcotics and Law Enforcement Affairs, U.S. 
      Department of State, prepared statement of.................    69
    Swartz, Bruce, Deputy Assistant Attorney General, Criminal 
      Division, U.S. Department of Justice, prepared statement of   107
    Ward, Frank, Office of the Inspector General, U.S. Department 
      of State, prepared statement of............................    33
    Ward, Mark, Senior Deputy Assistant Administrator, ASIA 
      Bureau, U.S. Agency for International Development, prepared 
      statement of...............................................    98
    Wilkes, Major General Bobby, (retired), Deputy Assistant 
      Secretary of Defense for South Asia, Office of the 
      Secretary of Defense, U.S. Department of Defense, prepared 
      statement of...............................................    88


  OVERSIGHT OF U.S. EFFORTS TO TRAIN AND EQUIP POLICE AND ENHANCE THE 
                     JUSTICE SYSTEM IN AFGHANISTAN

                              ----------                              


                        WEDNESDAY, JUNE 18, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Braley, Van 
Hollen, Welch, Shays, and Foxx.
    Also present: Representative Moran.
    Staff present: Dave Turk, staff director; Andrew Su, 
professional staff member; Davis Hake, clerk; Andy Wright, 
counsel; Rebecca Macke, intern; A. Brooke Bennett, minority 
counsel; Nick Palarino, minority senior investigator and policy 
advisor; and Benjamin Chance and Todd Greenwood, minority 
professional staff members.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs' hearing entitled, 
``Oversight of U.S. Efforts to Train and Equip Police and 
Enhance the Justice System in Afghanistan,'' will come to 
order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements. Without objection, that is so ordered.
    And I ask unanimous consent that Mr. Moran from Virginia be 
allowed to participate in the hearing. Without objection, that 
is so ordered.
    I also ask unanimous consent that the hearing record be 
kept open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, that is also ordered.
    Before I begin with the opening statements, I would just 
like to acknowledge that we have with us today a group of 
individuals from Afghanistan comprising of six members of 
Parliament, the Lower House of the Afghan National Assembly, 
from the Committee on National Defense and the Committee on 
Internal Security, and officials from the Ministry of Interior. 
They have been kind enough to speak with us this morning and to 
give us some insight from their perspective, which was 
incredibly helpful. We are appreciative that they have made the 
trip here, spent time with us, and that they are going to spend 
some time in the hearing this morning. We welcome them.
    At this point we are going to break the normal course of 
action, and I am going to ask Mr. Shays to please give his 
opening statement first. He has to testify at another 
committee, following which he will return to this committee.
    Mr. Shays, you are recognized for your opening statement.
    Mr. Shays. Thank you, Mr. Chairman, for your courtesy, and 
thank you for holding this important and timely hearing on the 
U.S.' effort to train and provide equipment to the Afghan 
security forces and to build capacity in their justice sector.
    Before turning to the subject of this hearing, I want to 
highlight a recent development in Iraq. This September, the 
entire Iraqi 275-member Legislative Body will move their 
offices and meetings to the Saddam Hussein-era Parliament 
Building, which is outside the heavily protected international 
zone. This move is a further indication of the improved 
security situation in Baghdad, in spite of the horrific 
bombings that occurred there yesterday, and the progress that 
is being made in that country.
    It was the men and women of the Coalition Force in Iraq who 
brought about this change for the better. They had the help of 
the Iraqi Security Force, including the Iraqi Army, Border 
Patrol, and the police, who were trained not only by the United 
States but also by other members of the international 
community.
    This brings me to the subject of today's hearing. What 
action is the United States taking to develop and sustain the 
Afghanistan National Police and the Rule of Law in Afghanistan? 
Police forces for any country are essential, but they are 
especially important in countries fighting insurgence and 
terrorists. A government that cannot provide security to its 
citizens will never be able to gain legitimacy.
    When subcommittee staff met with the group of Provincial 
Council leaders from Afghanistan, they said that the three most 
important concerns to the Afghans today are: one, security; 
two, educational opportunity; and three, economic progress. 
These are inherently connected. Police provide protection in 
the villages so that students can go to school, and these 
increased educational opportunities afford Afghan children 
greater professional and economic choices, but the crucial step 
is providing an environment in which students and parents can 
feel safe and secure sending their children to school.
    As we see in Iraq, if a nation's people do not have a 
police force they can trust and depend on, they will look to 
others to defend them. We have already seen villages in 
Afghanistan starting to turn to the Taliban for protection, and 
that is impeding the success of the Afghan government and the 
success of the international community.
    Just as we train the military and police forces in Iraq, we 
are providing training to the security forces in Afghanistan.
    With that, Mr. Chairman, let me put the rest of my comments 
in the record and I will return as soon as I testify.
    Mr. Tierney. Thank you, Mr. Shays. We appreciate your 
opening remarks.
    We do try to work on a bipartisan basis in this committee. 
I think your remarks will be reflected in mine, as well.
    I again want to welcome everybody here, our witnesses in 
particular. This hearing is a part of a sustained oversight 
effort this committee has had.
    We have managed to send three congressional delegations to 
Afghanistan and Pakistan since 2007. During the most recent 
trip, which was just a few months ago, we sat down with 
Afghanistan's Minister of Justice, His Excellency Sarwar 
Danish. It was the last meeting we had in Afghanistan. It was 
later in the day. We had just completed a somewhat ambitious 
schedule of travel to Herat within Kabul. We had visits with 
U.S. troops and our top generals, with President Karzai and 
local Afghan leaders and with U.S. diplomats and development 
workers in the field.
    Justice Minister Danish, along with just about everybody 
else with whom we met during that trip, stressed the vital 
importance of police as the first line of security and `the 
Rule of Law.
    It was also stressed that police cannot be viewed in 
isolation. Afghans need professional, honest, and well-trained 
judges; they need prosecutors and defense attorneys; they need 
a functioning and legitimate legal code; and they need safe and 
secure jails.
    The Minister laid out the immense challenges that face his 
fellow Afghans, and this morning the delegation, who I 
mentioned earlier, also cited those challenges. After over 30 
years of conflict, Afghans face widespread illiteracy, decades 
of exodus of educated Afghans, rampant corruption fueled by the 
opium trade, and competing, urgent national priorities.
    There appears to be growing consensus forming about the 
vital nature of the justice sector in Afghanistan; that this is 
absolutely crucial in efforts to stabilize Afghanistan and to 
bring law and order to all Afghan communities.
    The Rule of Law is necessary to successfully take on the 
terrorists and the insurgents, to quell the insecurity, and to 
root out the corruption that provides space and opportunity for 
the Taliban and other extremists, narcotics traffickers, and 
war lords to prosper. The International Crisis Group put it 
this way in a report entitled ``Reforming Afghanistan's 
Police.'' They said, ``Policing goes to the very heart of state 
building. . . . A trusted law enforcement institution would 
assist nearly everything that needs to be achieved in 
[Afghanistan].''
    A recent RAND Corp. study commissioned by the Secretary of 
Defense on counterinsurgency strategy in Afghanistan even 
placed the importance of capacity building in the police ahead 
of that of the Afghan army: ``Building the police in 
counterinsurgency should be a higher priority than the creation 
of the army because the police are the primary arm of the 
government in towns and villages across the country. . . . They 
have close contact with local populations in cities and 
villages and will inevitably have a good intelligence picture 
of insurgent activity.''
    The State Department Inspector General's office recently 
stressed: ``Confidence that the government can provide a fair 
and effective justice system is an important element in 
convincing war-battered Afghans to build their future in a 
democratic system rather than reverting to one dominated by 
terrorists, war lords, and narcotics traffickers.''
    The next question that must be asked is: how are we doing?
    With us today is the head of the Government Accountability 
Office team that just completed an in-depth, on-the-ground 
assessment of U.S. efforts to develop Afghan national security 
forces, including the Afghan National Police.
    The Government Accountability Office offers a stark answer 
to the question of how we are doing. Here is what it reports: 
Not a single Afghan police unit is ``fully capable of 
performing its mission.'' In fact, ``96 percent (296 of 308) of 
uniformed police districts and all border police battalions (33 
of 33) were rated at the lowest of four possible capability 
ratings.'' Less than one-quarter of the police have mentors 
present to provide training in the field and verify that police 
are on duty.''
    ``[S]hortages remained in several types of police equipment 
that Defense considers critical, such as vehicles, trucks, and 
body armor.''
    ``[T]he slow rate at which the rule of law is being 
implemented across Afghanistan inhibits community policing,'' 
and ``police in the field also face persistent problems with 
pay, corruption, and attacks.''
    The GAO's specific findings are both shocking and 
disheartening, but consistent with other recent analyses. Just 
last week, RAND noted that while ``the [Afghan army's] 
competence improved in the early stages of the 
counterinsurgency campaign,'' the ``same cannot be said for the 
[Afghan police], which suffered from a lack of attention, low 
levels of initial funding, no initial mentoring, corruption, 
and a paucity of loyalty to the central government.'' As of 
2007, 65 percent of the Afghan people believed that the Afghan 
police force ``is unprofessional and poorly trained.''
    The State Department Inspector General recently concluded, 
``the continuous turnover of U.S. government staff and the 
conflicting priorities among even U.S. government entities, in 
the context of the desperate straits of the Afghan justice 
sector, indicate that the challenges of the [Rule of Law] 
Coordinator will only continue to grow.''
    Startlingly, the State Inspector General found that ``no 
one [United States Government] source seems to have a clear 
picture of the scope of U.S.' expenditure in this field.''
    Perhaps the following images are worth 1,000 words when it 
comes to the challenges faced by the Afghan prison sector.
    [Videotape presentation.]
    Mr. Tierney. And these breakdowns in the Afghan justice 
sector have real-world consequences. Taliban fighters have 
reportedly now taken control of nine villages a dozen or so 
miles from last Friday's prison break.
    Some commentators have dubbed our efforts in Afghanistan 
``the forgotten war.'' Unfortunately, the Government 
Accountability Office finds some evidence to substantiate that 
moniker. It notes that, ``according to Defense Officials 
leading the effort in Kabul, the shortage of mentors is the 
primary obstacle in building a fully capable [police] force.'' 
They also conclude that ``the shortfall in military mentors for 
the [police] is due to the higher priority assigned to 
deploying military personnel elsewhere, particularly Iraq.''
    Afghan police equipment shortages are also partly 
attributable to ``competing priorities, particularly the need 
to equip U.S. military personnel elsewhere, particularly 
Iraq.''
    Nearly 7 years after the invasion of Afghanistan, I don't 
think anyone can take a whole lot of pride in the answer to the 
question of how we are doing. But the stakes here are enormous. 
Put simply, effective and honest Afghan police and a well-
functioning justice systems are critical to the future of 
Afghanistan and to the security of all Americans. We simply 
have to do better, and time is of the essence.
    We should note also that it is not for lack of Afghans 
being intent on trying to come to their own aid. A substantial 
number of Afghanistan residents have died as police officers, 
and they are being targeted regularly. The extremist forces are 
not unconscious of the fact that a better trained police force, 
an effective police force, is probably the best thing that 
could happen to that country in terms of turning down the level 
of extremism and fighting it, and preventing its capacity to 
keep interrupting the progress in Afghanistan.
    We have a brave people in Afghanistan willing to step 
forward. They need assistance being trained and equipped. The 
real questions are: how are we going to do that? When can we do 
it? And are we on the best path now to get it done?
    I look forward to engaging in this critical dialog. While I 
think we are all frustrated at the lack of the degree of 
capacity we would have liked to have seen over the last 7 
years, I hope this subcommittee can play a constructive role in 
the path ahead, and look forward to the testimony of all of our 
witnesses.
    Now we will receive testimony from the first panel that is 
before us today.
    Mr. Charles Michael Johnson, Jr., good morning.
    Mr. Charles Johnson. Thank you, Mr. Chairman.
    Mr. Tierney. Mr. Johnson is the Director of the 
International Affairs and Trade Division of the U.S. Government 
Accountability Office, Congress' investigatory arm. Mr. Johnson 
has had an extremely distinguished 27-year career with the 
Government Accountability Office, having won numerous awards, 
including special commendation awards for outstanding 
performance, leadership, management, and high congressional 
client satisfaction.
    I should also add that this subcommittee has kept Mr. 
Johnson and his team very busy over the recent weeks and 
months. This will be the second time, I think, that you have 
testified before this subcommittee just in the last month. We 
appreciate your maintaining the pace and the professionalism 
that you and your staff have done, and thank them as well as 
you for your efforts, and the entire team.
    Mr. Frank Ward is the State Department's Deputy Assistant 
Inspector General for Inspections. He has inspected the U.S. 
mission in Russia and served as deputy team leader for the 
inspections in our embassies in Khartoum and Nairobi, the Rule 
of Law program in Afghanistan, and the Voice of America news. 
Mr. Ward joined the U.S. Foreign Service in 1978. We also note 
that Mr. Ward's involvement in Afghanistan can be traced back 
at least three decades, when he participated--presumably as a 
child--in a USAID educational project there.
    And Mr. Erich Hart also joins Mr. Ward. I don't know if he 
will be presenting testimony or just assisting in the 
responses. We welcome you, as well.
    It is the policy of this subcommittee to swear you in 
before you testify, so I would ask you to please stand and 
raise your right hands. If there are any other persons who may 
be assisting you in responding to the questions, I ask that 
they also stand and raise their hand, as well.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses answered in the affirmative.
    With that, and with the knowledge that your written 
comments will appear on the record in full, we have 5 minutes 
that we generally allocate for opening statements. We will try 
to be lenient and allow you to go over, of course, to a certain 
degree without being rude with you going on too long. We want 
to bring it to a close. We may tap the gavel, ask you to 
summarize and conclude. I know that Members on the panel here 
do have a number of questions that they have from reading your 
written testimony and from the various reports that are here.
    Mr. Johnson, thank you again for being with us. We are 
anxious to hear your testimony.

     STATEMENTS OF CHARLES MICHAEL JOHNSON, JR., DIRECTOR, 
INTERNATIONAL AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY 
 OFFICE; AND FRANK WARD, OFFICE OF THE INSPECTOR GENERAL, U.S. 
    DEPARTMENT OF STATE, ACCOMPANIED BY ERICH HART, GENERAL 
               COUNSEL, U.S. DEPARTMENT OF STATE

              STATEMENT OF CHARLES MICHAEL JOHNSON

    Mr. Charles Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, members of the subcommittee, I am pleased to 
be here today to discuss the U.S. efforts to assist in 
developing the Afghan National Police and the establishment of 
Rule of Law in Afghanistan. My statement is based on our 
report, being released today, that focuses on U.S. efforts to 
develop Afghan national security forces; that is, an Afghan 
National Army and an Afghan National Police.
    First, I will describe the current status of the ANP, the 
Afghan National Police; second, I will address challenges the 
United States faces in developing fully capable Afghan National 
Police forces, including the Rule of Law; third, I will discuss 
Defense and State efforts to develop a coordinated, detailed 
plan for completing and sustaining the Afghan National Security 
force.
    Before I discuss findings, I would like to note that 
establishing a capable Afghan National Police force and Rule of 
Law are considered vital to stabilizing Afghanistan.
    U.S. support for the Afghan National Police increased 
significantly in 2005 in response to concerns that the security 
situation within Afghanistan was getting worse and that the ANP 
development was moving too slowly. Since 2005, Defense, with 
the support of the State Department, has directed U.S. efforts 
to develop the Afghan National Police.
    With respect to the current status of the Afghan National 
Police, our work revealed that, despite an investment of over 
$6 billion, no Afghan National Police force is fully capable of 
conducting operational missions without routine assistance or 
reliance on the international community. In fact, over three-
fourths are assessed as formed but not yet capable of 
operational missions.
    Furthermore, our ANP has reportedly grown in number to a 
force of nearly 80,000; what the ANP has actually grown is 
questionable, given the concerns with the reliability of the 
figures reported by the Afghan Minister of Interior.
    A September 2007 Defense census noted that about 20 percent 
of the Afghan uniformed police and about 10 percent of the 
Afghan border police could not be verified in some provinces.
    Concerning challenges, we found that several factors 
impeded the U.S. efforts to build a capable Afghan National 
Police force.
    Mr. Chairman, as you noted, the first challenge that we 
discovered was that there was a shortage that existed in the 
number of police mentors needed to conduct training, evaluate 
capability, and verify that the police were actually on duty. 
Defense officials identified the shortage of mentors as a 
primary obstacle to building fully capable police forces and 
referenced competing demands in Iraq.
    Second, the ANP continues to encounter difficulties with 
some equipment shortages and quality. As you mentioned earlier, 
the equipment shortages relate to vehicles, body armor, and 
radios, in particular.
    Third, the ANP faces a difficult working environment, 
including persistent problems with pay, corruption, and attacks 
from insurgents, and a weak judicial sector.
    In 2005, we reported that few linkages existed between the 
Afghan judiciary system and the police, and that the police had 
little ability to enforce Rule of Law. Our recent work revealed 
that the Rule of Law challenges continue to exist.
    In November 2007 Defense began a focused district 
development initiative to address some of these challenges. 
This new initiative is an effort to train, equip, and deploy 
police as a part of a unit rather than as individual police 
officers. This is similar to how the Afghan National Army is 
being trained and equipped.
    We have not fully assessed this particular initiative; 
however, the continued shortfalls in the police mentors may put 
this initiative at risk.
    With respect to planning, despite our 2005 recommendation 
calling for a detailed plan for completing and sustaining the 
Afghan National Security Forces and a 2008 congressional 
mandate requiring similar information, Defense and State have 
not developed a coordinated, detailed plan that, among other 
things, includes clearly defined roles and responsibilities and 
interim milestones for achieving objectives, future funding 
requirements, and a strategy for sustaining results achieved.
    In the absence of a plan that clearly states the various 
agencies' roles and responsibilities, coordination difficulties 
have occurred. In the absence of a plan with interim milestones 
against which to assess the ANP, it is difficult to know if 
current ANP status represents where the United States should 
have been at or what goals the United States should have 
achieved by 2008.
    In the absence of a plan containing a transition strategy 
that includes a focus on sustainment, it is difficult to 
determine how long the United States may need to continue 
providing funding and other resources to complete and sustain 
the Afghan National Police.
    In summary, after more than $6 billion invested, no Afghan 
police unit is assessed as fully capable of carrying out its 
mission, the ANP development continues to face several 
challenges, and a coordinated detail plan has yet to be 
established.
    To help ensure coordination and enhance the accountability 
of U.S. efforts, our report being released today on U.S. 
efforts to build capable Afghan National Security forces 
encourages the Congress to consider conditioning portions of 
future appropriations relating to the training and equipping of 
the Afghan National Security Forces on the completion of a 
coordinated plan.
    Mr. Chairman and members of the subcommittee, this 
concludes my opening statement. I am pleased to take any 
questions at this time.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T1638.001
    
    [GRAPHIC] [TIFF OMITTED] T1638.002
    
    [GRAPHIC] [TIFF OMITTED] T1638.003
    
    [GRAPHIC] [TIFF OMITTED] T1638.004
    
    [GRAPHIC] [TIFF OMITTED] T1638.005
    
    [GRAPHIC] [TIFF OMITTED] T1638.006
    
    [GRAPHIC] [TIFF OMITTED] T1638.007
    
    [GRAPHIC] [TIFF OMITTED] T1638.008
    
    [GRAPHIC] [TIFF OMITTED] T1638.009
    
    [GRAPHIC] [TIFF OMITTED] T1638.010
    
    [GRAPHIC] [TIFF OMITTED] T1638.011
    
    [GRAPHIC] [TIFF OMITTED] T1638.012
    
    [GRAPHIC] [TIFF OMITTED] T1638.013
    
    [GRAPHIC] [TIFF OMITTED] T1638.014
    
    [GRAPHIC] [TIFF OMITTED] T1638.015
    
    [GRAPHIC] [TIFF OMITTED] T1638.016
    
    [GRAPHIC] [TIFF OMITTED] T1638.017
    
    [GRAPHIC] [TIFF OMITTED] T1638.018
    
    [GRAPHIC] [TIFF OMITTED] T1638.019
    
    [GRAPHIC] [TIFF OMITTED] T1638.020
    
    [GRAPHIC] [TIFF OMITTED] T1638.021
    
    [GRAPHIC] [TIFF OMITTED] T1638.022
    
    Mr. Tierney. Thank you, Mr. Johnson. We are going to have 
some questions, I am sure, once the other panelists finish 
testifying. I appreciate your willingness to stay for that.
    Mr. Ward.

                    STATEMENT OF FRANK WARD

    Mr. Frank Ward. Thank you, Mr. Tierney, Ranking Member 
Shays, members of the Subcommittee on National Security and 
Foreign Affairs. Thank you for inviting the State Department 
Office of the Inspector General to discuss our inspection of 
Rule of Law programs in Afghanistan, which was published last 
January.
    I am joined by, as you said, by Mr. Erich Hart, our General 
Counsel, but also a Retired Air Force Judge Advocate General 
officer who is part of our inspection team.
    We commend the committee's decision to focus attention on 
both Rule of Law and police training activities in Afghanistan. 
From what we have observed, we believe that any assessment of 
Rule of Law programs requires an understanding of, first, 
United States and Coalition strategic conditions in the region; 
second, the current state of Afghan civil society, the 
interaction of the emerging civil law system, and the customary 
or informal legal system; third, the relationship among police, 
prosecutors, and judges; fourth, the impact of pervasive 
corruption within Afghan institutions; fifth, the way we invest 
and how we invest in counternarcotics, police training, and 
Rule of Law programs; last, the coordination among multiple 
U.S. Government, civilian, and military programs.
    Mr. Chairman, we published a series of recommendations for 
our Rule of Law programs that underscored basic precepts. 
First, the importance of maintaining a senior Foreign Service 
officer or senior Federal official with comparable rank and 
experience as the Rule of Law Coordinator. We also recommended 
that mission leadership be regularly involved in program 
strategy and planning.
    Concurrently, we recommended that the Department of Justice 
senior official in Kabul report directly to the Deputy Chief of 
Mission, along with the Rule of Law Coordinator.
    We found that a gap in cooperation exists between U.S. 
police training programs and the judicial sector programs. We 
believe that the Embassy officer with the police training 
portfolio should participate effectively in the Embassy Rule of 
Law Coordinating Committee, which had not been the case.
    To promote better cooperation, coordination with military 
task force officers, with Rule of Law responsibilities, we have 
encouraged the Rule of Law Coordinator and program experts to 
conduct in-depth Rule of Law briefings for incoming military 
commanders and Judge Advocate General officers. Additionally, 
we recommended that the coordinator should develop a shared 
training schedule for use by all training providers in order to 
deconflict their work.
    We recommended that a 5-year strategic plan is needed to 
meet the challenges faced in the formal Afghan justice sector 
with its historically low capacity for change, its reputation 
for corruption, and its limited reach outside of major cities.
    We believe Embassy Kabul, after coordinating with the 
Afghan government, U.S. agencies, and international donors, 
should determine whether linkage should exist between the 
positive aspects of the informal justice sector, which is 
understood and trusted by many Afghans, and the formal justice 
system.
    Rule of Law programs are concentrated in and around Kabul 
and a few other Afghan cities, not in the provinces, where 90 
percent of Afghans live. Outreach is in its early stages, but 
we strongly encourage the Embassy to ensure that Provincial 
Reconstruction Team officers are thoroughly briefed by any 
Attorney General with Rule of Law responsibilities.
    There is a need for an anti-corruption strategy that 
crosses all sectors of the Embassy's Rule of Law institutions.
    Last, the Director of Foreign Assistance, the Bureau of 
International Narcotics and Law Enforcement Affairs, the 
Embassy, and the U.S. Agency for International Development 
should identify and track all justice sector funds for 
Afghanistan. This is crucial so that we know what sources of 
funding are being used and where there is a duplication of the 
work.
    Mr. Chairman, advancing the Rule of Law is a global 
objective of the Department of State. It is critical in 
Afghanistan, where the absence of a modern, functional 
government sustains terrorism and encourages the rapid growth 
of the opium trade.
    I would be pleased to respond to any of your questions.
    Thank you again, Mr. Chairman, Ranking Member Shays, and 
the committee. Thank you.
    [The prepared statement of Mr. Ward follows:]

    [GRAPHIC] [TIFF OMITTED] T1638.023
    
    [GRAPHIC] [TIFF OMITTED] T1638.024
    
    [GRAPHIC] [TIFF OMITTED] T1638.025
    
    [GRAPHIC] [TIFF OMITTED] T1638.026
    
    [GRAPHIC] [TIFF OMITTED] T1638.027
    
    [GRAPHIC] [TIFF OMITTED] T1638.028
    
    [GRAPHIC] [TIFF OMITTED] T1638.029
    
    [GRAPHIC] [TIFF OMITTED] T1638.030
    
    [GRAPHIC] [TIFF OMITTED] T1638.031
    
    [GRAPHIC] [TIFF OMITTED] T1638.032
    
    [GRAPHIC] [TIFF OMITTED] T1638.033
    
    [GRAPHIC] [TIFF OMITTED] T1638.034
    
    [GRAPHIC] [TIFF OMITTED] T1638.035
    
    [GRAPHIC] [TIFF OMITTED] T1638.036
    
    [GRAPHIC] [TIFF OMITTED] T1638.037
    
    [GRAPHIC] [TIFF OMITTED] T1638.038
    
    [GRAPHIC] [TIFF OMITTED] T1638.039
    
    Mr. Tierney. Thank you very much.
    Mr. Hart, are you going to offer any testimony, or be 
available just for questioning.
    Mr. Hart. I am available for questioning.
    Mr. Tierney. Great. Thank you for joining us this morning.
    Thank you for your testimony, both of you. We will enter 
the question period now.
    If I might start, I want to start with what appears to be 
the lack of strategy, or at least a plan indicating what the 
strategy is, right across the spectrum of Rule of Law issues on 
that. If each of you would speak to the importance of that and 
what the benefit of having a plan at every level would be.
    Mr. Charles Johnson. Mr. Chairman, our work, as we 
recommended, as I mentioned before, in 2005 that we felt like a 
plan was needed. Primarily, given the dual role of the State 
Department, as well as Defense, a plan would have helped to 
deconflict some situations where we have discovered there has 
been some unclear guidance or direction in terms of who is in 
charge. In particular, DynCorp is a contractor working on 
behalf of the State Department, but the Defense Department is 
implementing the program, and at times we have been made aware 
that there have been some conflicting priorities, conflicting 
guidance in terms of who is in charge of what. So such a plan 
would help in that area.
    Not only that, more so a plan would help. A plan that 
includes interim milestones would be critical and very 
important because it would help us know where the Department of 
Defense and State should have been in progressing the Afghan 
National Police Forces, as opposed to a plan that does not have 
interim milestones for which we could assess progress.
    Mr. Tierney. Mr. Ward.
    Mr. Frank Ward. Mr. Chairman, our inspection was focused 
primarily on the judicial section, less so on police training. 
We had gone out because there was concern of lack of 
coordination between the various parties. What we had found was 
that the Embassy had been working to create a coordinator 
position. In the course of the months since we began our 
inspection and since our inspection ended, there has been an 
Afghan judicial program has been produced. There was work at 
the Rome Conference in the summer of 2007, and now the donor 
nations and the Embassy are working on their own strategies in 
response to the strategy that had not previously existed but 
which now the Afghan government has developed.
    Thank you.
    Mr. Tierney. Mr. Johnson, you felt pretty strongly about 
this, folks at GAO, as you recommended that Congress withhold 
certain amounts of funds unless and until the plan and a 
strategy were put forward on that. I think that is an 
interesting recommendation. Of course, I see problems coming 
from it. If there is a stubbornness in not producing that plan 
and the funds are withheld, we get further behind the eight 
ball. But I think what it does, certainly, is put some emphasis 
and concern on that. We have to consider taking some action on 
that if we don't see a plan.
    I might just add that in this morning's conversation with 
our friends from Afghanistan, the frustration is palpable, not 
just in this country and the international community, but 
Afghans, as well. It would be helpful for them to know what the 
benchmarks are, are we meeting them, how close are we, when 
might this be accomplished, and how is progress going. So for 
the whole psyche of the international community, including the 
Afghans, it would be important to see progress and know how to 
measure it and know how to determine whether or not we are on 
the right path in that regard. So that obviously is important.
    Let me ask you about capacity. In your opinion, having been 
investigating this for a while, does the capacity exist in 
Afghanistan to actually have the personnel needed to fill the 
positions of judges and prosecutors and lawyers and police 
officers in a reasonable period of time? What is your 
assessment of that?
    Mr. Charles Johnson. Well, I think clearly there has been a 
report. We raised issues with the reliability of the numbers, 
but it shows that there has been some progress in manning, and 
that is recruiting individuals to serve as Afghan National 
Police. Obviously, there are efforts underway to do some 
reforming in that particular area with respect to vetting 
individuals, but yes, there have been numbers in terms of the 
number of recruits that are available. It is going to take time 
to train those individuals, to get them fully capable, as I 
noted earlier.
    Mr. Tierney. Mr. Ward, do you have the same impression?
    Mr. Frank Ward. Yes, sir. Indeed, the challenges are great. 
The numbers needed are many. The programs have been set in 
motion, but we are talking about a very long-term commitment.
    Mr. Tierney. Mr. Johnson, do you get the feeling that if we 
were to get the equipment up to the level where it ought to be, 
in terms of being functioning equipment that is usable, and if 
we get more police mentors, that could have an immediate impact 
in a positive way?
    Mr. Charles Johnson. I think the benefit of having the 
mentors and equipment that has been deemed to be critical by 
the Defense Department, that the United States can make 
progress toward this goal. Right now we are of the 
understanding that there is some substitution with Eastern 
equipment as opposed to Western equipment, which is what we 
intended to train them on. That equipment is critical in terms 
of getting them to the capacity that we would like to have them 
at. But yes, the mentors is the greatest challenge that we have 
been made aware of by all levels, including folks in 
Afghanistan who are carrying out this mission, that is the 
biggest challenge they face.
    Mr. Tierney. Thank you. Thank you both.
    Mr. Shays.
    Mr. Shays. I am happy to have you ask some of your 
colleagues first on your side of the aisle.
    Mr. Tierney. Mr. Lynch, you are recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I thank the ranking 
member for his courtesy, as well.
    First of all, I want to thank the panel for coming before 
us and helping work, and also I want to thank the members of 
the Jirga, the Afghan Parliament, for coming forward, as well. 
We appreciate your input on this issue.
    At the chairman's request, I have had an opportunity to 
travel to Afghanistan a number of times now, and I just want to 
ask Mr. Johnson, as I remember, the responsibility for training 
the Afghan National Police was initially assigned, under the 
Coalition authority, to the German Army, basically.
    Mr. Charles Johnson. That is correct.
    Mr. Lynch. They were responsible for doing the initial 
training; is that correct?
    Mr. Charles Johnson. That is correct, sir.
    Mr. Lynch. OK. And I am not throwing the Germans under the 
bus here, but I have to admit when I was there it was not going 
well. I give them credit that the government of Germany 
committed resources with us to help out in the situation in 
Afghanistan, but when did the United States--I understand we 
had to go in there and take that over at some point. When did 
that occur?
    Mr. Charles Johnson. Well, in 2005 we began an effort to 
contribute more to this effort. That was out of concern that 
the progress of building the Afghan National Police Forces and 
even the Afghan Security Force as a whole was moving too 
slowly. The police, in particular, was the responsibility of 
the Germans as the lead nation.
    Mr. Lynch. Are we now the lead on this, on the training, or 
are the Germans still the lead?
    Mr. Charles Johnson. You could pretty much say that we have 
significantly increased our efforts and that we have pretty 
much taken over the lead on that.
    Mr. Lynch. OK. I understand. Because that is a problem. We 
had a false start to begin with, and I think it was an effort, 
it was a well-intentioned, good faith effort to dole out the 
responsibility there, but I have to admit it did not go well.
    It sort of parallels the situation that the chairman had us 
review in Iraq. We went in there initially and reviewed the 
Iraqi police training, and it seems that we are making some of 
the same mistakes that we made in Iraq. We had some false 
starts there, as well.
    But we spent an awful lot of money. We have spent over $6 
billion. That is a huge amount of money in that country. And we 
have not a single unit that you regard as being adequately 
trained and prepared to assume the responsibilities of a 
competent police force.
    Mr. Charles Johnson. That is actually the Department of 
Defense's own assessment of the capability of the police 
forces, so even the Department of Defense does not deem them as 
being fully capable.
    Mr. Lynch. Right. So what is happening? What is happening 
here? I understand the projection. Well, the government's 
ability to project its authority and influence is limited, and 
that in some of the outlying areas and areas of the south, 
Helman Province, there are real difficulties on the border. But 
elsewhere in the country, where you don't have that influence 
coming over the Pakistan border, we don't see any success 
there, as well.
    So where are the breakdowns in this process? We are 
spending a lot of money and we are getting very little for our 
effort here. I think, as the chairman pointed out, the American 
people are getting pretty tired of this. They want to see some 
progress. And I don't believe it is the fault of our friends 
here; I think it is really a lack of coordination among the 
Multi-National Force there that is not serving them well.
    If you can point out where the breakdowns are, that would 
be enormously helpful.
    Mr. Charles Johnson. I think the biggest breakdown, as we 
point out in our report released today, is the lack of 
sufficient number of mentors that are needed to train these 
individuals, as well as evaluate their capacity, and to also 
move them forward in terms of, once the unit is trained, the 
trainers and mentors go with that unit and continue to work 
with them. So there is an insufficient number of those mentors 
that are needed to move along with the units and to continue 
making progress in terms of getting these individuals to being 
fully capable of operating on their own.
    Mr. Lynch. OK.
    Mr. Ward, I understand that you really looked at the Rule 
of Law in a broader sense and you didn't focus really on the 
training, but last time I was there some of the inefficiencies 
were very glaring. No. 1, we were paying the Afghan National 
Police about $60 to $70 a month. Al Qaeda was paying their 
folks almost $300 a month. The same situation on the other side 
of the border. I happened to travel up into the Waziristan area 
on the Pakistan side, where the Pakistani government was paying 
their Frontier Corps about $120 a month, when the pay arrived, 
if it arrived, and then, again, Al Qaeda and some Saudi money 
there was able to pay the insurgents almost three times that 
amount.
    So what are we doing about paying the Afghan National 
Police? The problems are multiple, but they don't have the pay, 
so we are not getting the quality of people that might be 
helpful in this situation. We are having problems with 
equipment. We have another hearing next week on the AEY 
contract where the Defense Department was providing VietNam era 
munitions and equipment to the Afghan National Police through a 
questionable contract.
    We are not able to establish the respect among the Afghan 
population for the police force, so there is a complete 
breakdown there.
    What are we doing now about those aspects of this training 
process?
    Mr. Charles Johnson. There is an effort underway to pay 
reform currently and to make the pay of the Afghan National 
Police comparable to that of the Afghan Army. I think that is 
part of their current initiative they have.
    I mentioned the focused district development initiative, in 
particular. I guess, in addition to the pay, what they are 
doing is training and equipping these units to move out, as 
opposed to as individuals. But as an entire unit, so I think 
again this all goes back to having a sufficient number of 
mentors to get that done, and also to have the reform effort 
completed, as well as the vetting that needs to be done. The 
pay and rank reform is needed. That is something we are also 
looking at, as well.
    Mr. Tierney. Thank you very much, Mr. Lynch.
    Mr. Lynch. I am yielding back, Mr. Chairman. I just want to 
say that I think that the confidence of the people in this 
government is directly related to their confidence in their 
local police force, and so I think we have a serious problem 
then.
    I yield back.
    Mr. Tierney. Thank you.
    Mr. Van Hollen, you are recognized for 5 minutes.
    Mr. Van Hollen. I thank you, Mr. Chairman. Thank you for 
holding this important hearing. Thank you to our witnesses.
    If you look at the National Intelligence Estimates, if you 
look at the statements by the Director of National 
Intelligence, they are very clear that the No. 1 terrorist 
threat to the United States remains an attack that originates 
out of that area along the Afghan-Pakistan border, especially 
from the FATA areas, the Federal Minister tribal areas in 
Pakistan, where Al Qaeda continues to have refuge and sanctuary 
and the Taliban continue to be very active, as we have seen in 
recent weeks.
    Despite the fact that remains, according to our 
intelligence agencies as publicly reported, the No. 1 threat to 
the United States, we continue to see the results of a 
diversion of resources and attention from the problems in 
Afghanistan and Pakistan to Iraq.
    If I could just ask the witness, Mr. Johnson from the GAO, 
to turn again to this question of mentors, because it has been 
clear in your statements, it is clear in your report, that the 
lack of mentors has been one of the biggest problems in 
establishing a viable police force; isn't that correct?
    Mr. Charles Johnson. That is correct, sir.
    Mr. Van Hollen. OK. And as I read your statement here in 
your report, it says, ``According to Defense officials--'' and 
I want to stress the basis of that statement is reporting from 
Defense officials to you--``the shortage of available police 
mentors has been a key impediment to U.S. efforts to conduct 
training and evaluation and to verify that police are on 
duty.''
    Then you go on to say, ``According to Defense officials, 
the shortfall in military mentors for the ANP is due to the 
higher priority assigned to deploying U.S. military personnel 
elsewhere, particularly in Iraq.''
    If you could just expand on what Defense officials told 
you, because the administration has often dismissed criticisms 
that our energy and resources folks in Iraq has taken away from 
our focus in Afghanistan, but this seems to be very clear 
evidence. This is sort of hard, empirical data that there are 
real consequences to the fact that we have diverted lots of 
resources in Iraq when we never finished the job in 
Afghanistan, and again our NIE and intelligence folks tell us 
that is where the No. 1 threat emanates from.
    Mr. Charles Johnson. Congressman, that statement actually 
came from Defense officials, and particularly from Defense 
officials in Kabul at the Command Security Transition Command, 
in particular, CSTC-A, made that sort of the point that they 
wanted to emphasize in terms of why there was a shortage of 
mentors. We also heard that, here in headquarters at the 
Pentagon, there were competing demands with Iraq.
    We were also informed that there has not been a denial of 
those resources, but yet there is a priority. In essence, Iraq 
is the priority with respect to the resources. There are 
resource limitations here.
    Mr. Van Hollen. Were they able to quantify it at all for 
you? In other words, if you didn't have as many folks in Iraq, 
you would be able to fully supply the mentors necessary to the 
situation in Afghanistan?
    Mr. Charles Johnson. That response was not specifically 
provided. In essence, we were informed that providing resources 
to Iraq has had some impact on the resources needed for 
Afghanistan.
    Mr. Van Hollen. Right.
    Mr. Charles Johnson. And that is the mentors, in 
particular.
    Mr. Van Hollen. Right. I would encourage my colleagues. 
There is a recent book published by author Ahmed Rashid, who is 
a Pakistani author. Its title is Descent into Chaos. The 
subtitle: The United States and the Failure of Nation Building 
in Pakistan, Afghanistan, and Central Asia. It is a scathing 
criticism of the U.S. approach to Afghanistan and Pakistan in 
terms of rebuilding the infrastructure there following the 
decision to go in there, which I think there was consensus in 
this country that we should go after the Taliban and Al Qaeda 
in the aftermath of 2001, but it chronicles in great detail the 
failures, including the failures in this area of rebuilding the 
Afghan National Police, because obviously part of building the 
stability in the country requires that you feel somewhat safe 
when you go out in the neighborhood.
    If you could talk a little bit about the situation outside 
of Kabul, where there has been this ongoing question about 
whether the United States has really taken on the war lords, 
the folks that control a lot of these regions, and whether that 
has been an impediment to being able to build an independent 
police force in those more remote areas.
    Mr. Charles Johnson. We did not specifically look at 
Operation Enduring Freedom or the U.S. forces and their efforts 
in terms of combat missions, but we were made aware that the 
security situation over time has gotten worse and, as I pointed 
out earlier, since 2005 it has deteriorated, and there are 
concerns with respect to attacks from insurgents on the Afghan 
National Police, in particular. But we have not done work 
specifically looking at our own forces' efforts.
    Mr. Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Van Hollen.
    Does that book give ideas on how to resolve the situation, 
as well?
    Mr. Charles Johnson. Sir?
    Mr. Tierney. Does that book give ideas on how to resolve 
the situation, as well? Could we get the author up here?
    Mr. Charles Johnson. Actually, it is an excellent book and 
it talks about the mis-steps in U.S. policy in Afghanistan. It 
focuses a lot on the fact that we have allowed the Taliban to 
have the sanctuary up in the Fattah areas of Pakistan. But I 
think he would be willing to do it. I think it would be well 
worth having him.
    Mr. Tierney. Thank you.
    Mr. Charles Johnson. Thank you.
    Mr. Tierney. Mr. Braley, you are recognized for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman.
    I want to take a slightly different tack away from the 
policing function and talk about the broader concept of respect 
for the Rule of Law. We know one of the fundamental 
distinctions that separates our democratic society from other 
societies around the world is the longstanding tradition in 
this country of maintaining respect for the Rule of Law over 
the influence of individuals who may have positions of power 
and influence at a given point in our country's history.
    One of the disturbing things that we have seen in Pakistan 
is an attack on an independent judiciary in a region where we 
share some of the same concerns about trying to develop 
effective policing systems that are going to be backed up by a 
competent judiciary that has an independent role in the 
functioning of its government, and where the citizens of that 
country have a uniform respect for the process that leads to 
justice, not just the individuals responsible for enforcing it.
    So, Mr. Ward, I want to start with your statement where you 
said the confidence that the government can provide a fair and 
effective justice system is an important element in convincing 
war-tattered Afghans to build their future on a democratic 
system rather than reverting to one dominated by terrorists, 
war lords, and narcotics traffickers.
    What is the current state of the Afghan judiciary to be 
able to deliver that type of public confidence that, when 
citizens are called to justice before that judiciary, they are 
going to be free from the types of influences that have long 
played in countries that are trying to aspire to a better 
democratic society?
    Mr. Frank Ward. Well, Congressman, it is a situation where 
they are struggling up from the bottom. As you know, there had 
been a functioning system in the past. It was destroyed for 30 
years of civil disorder. Now it is in the process of 
rebuilding.
    A few years back there were surveys that indicated very 
little support, very little confidence in the system. In recent 
months, since the beginning of our inspection last October, 
there have been some indications that the Afghan public is 
beginning to look on the formal system as viable. The numbers 
are still low, but apparently rising. So the new effort to re-
establish a formal system is working in the right direction, 
but it is an uphill fight.
    Mr. Charles Johnson. And I would like to add that both the 
Department of State and the USAID are conducting training 
programs, training for prosecutors. There is also training for 
judges, etc., because, again, for 30 years the country was in 
war footing.
    I would also like to mention that one of the issues is that 
the formal system covers basically Kabul and some major 
metropolitan areas, so the U.S. Institute of Peace, working 
together with the Afghan government, is looking at the 
desirability of perhaps linking certain aspects of the informal 
justice system with the formal system.
    Mr. Braley. Well, I practiced law for 23 years before I was 
elected to Congress, and, like many of my colleagues, I was 
inspired and motivated by the courage shown by the members of 
the Pakistani bar and judiciary in facing up to the challenges 
during the crack-down on their independent judiciary.
    What are we doing to encourage public/private partnerships 
to create exchange programs to bring Afghan jurists, Afghan 
attorneys, prosecutors, and other people in the justice system 
here to be part of mentoring programs and getting our people 
who are wanting to contribute in some meaningful way, who have 
the resources to make a positive impact? Right now, I am 
hearing very little about opportunities that are available to 
them to help provide the type of mentoring to get this system 
in a position that is going to be meaningful to help the people 
of Afghanistan.
    Mr. Frank Ward. Congressman, I am going to defer largely to 
our colleagues from the Bureau of International Narcotics and 
Law Enforcement Affairs, because they have several of those 
programs in operation, training programs in-country and the 
justice sector, and external programs. They do, as does USAID 
and also the U.S. Embassy, international visitor type exchange 
programs. There are also training programs at different 
American institutions where Afghan attorneys, prosecutors have 
gone for LLM degrees, as well.
    But let the people who are funding those talk about them. I 
think they are on the second panel.
    Mr. Braley. All right.
    Mr. Johnson, in the report that you have been talking about 
there was a conclusion that establishing a working judiciary in 
Afghan--
    Mr. Tierney. Mr. Braley, is this going to be a short 
question?
    Mr. Braley. Yes.
    Mr. Tierney. You are eating up Mr. Welch's 5 minutes.
    Mr. Braley. Well, I don't want to do that.
    Mr. Tierney. If you have a short question I will let you go 
forward.
    Mr. Braley. I just wanted to ask about the comment that 
establishing a working judiciary in Afghanistan based on the 
Rule of Law as a prerequisite for effective policing, and the 
report talks about corrupt judiciary. Can you expand upon what 
efforts are being taken to restore confidence in the public 
that the judiciary is not a corrupt system?
    Mr. Charles Johnson. We did not specifically look at the 
judicial system in this work we did. We touched on it 
previously in a 2005 report that we issued. At that time we 
noted that it was important to have that judicial pillar stood 
up at the same time you are standing up the security pillar.
    Obviously, if you have police who are out doing their job, 
they need to have a judicial system that is going to support 
that, but we did not specifically look at the judicial sector.
    Mr. Tierney. Thank you, Mr. Johnson. I think our next panel 
perhaps will be able to provide some light on that, as well.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman. I want to thank the 
witnesses, and I especially want to thank our guests from 
Afghanistan.
    Mr. Johnson, you noted, I gather--I regret I wasn't here to 
hear your testimony, but I have read the presentations--that 
the GAO has not fully assessed the focused district development 
program, but your opinion, as I understand it, or the GAO 
opinion, was that the continuing shortfall in police mentors 
may put this effort at risk.
    How do we get police mentors? Who provides them? And what 
is the problem in getting them there?
    Mr. Charles Johnson. Well, the police mentors are military 
personnel on the military side, but there are also civilian 
mentors. I guess I should note that the civilian mentors pretty 
much are at over 90 percent, and those are provided by DynCorp.
    Mr. Welch. So those are contractors?
    Mr. Charles Johnson. Yes.
    Mr. Welch. What do we pay them?
    Mr. Charles Johnson. I am not sure if I have that figure. 
We don't have that figure, sir, but I think it is roughly a 
little over 500 DynCorp mentors.
    Mr. Welch. I am just trying to get a sense of the cost, 
too, as we go along. We pay DynCorp an amount of money per 
mentor. What is it?
    Mr. Charles Johnson. I am not precisely sure. We can get 
you that information.
    Mr. Welch. All right.
    Mr. Charles Johnson. We can get that information to you.
    Mr. Welch. What do we pay a military mentor, or what is the 
cost to the military?
    Mr. Charles Johnson. I think the military is based on the 
salary that they are being paid as a soldier.
    Mr. Welch. And it would be in the range of what?
    Mr. Charles Johnson. Again, I would have to get that, as 
well.
    Mr. Welch. OK. That would be great to get that back. What 
do we pay DynCorp for this job, what do we pay the military 
person for that job?
    Mr. Charles Johnson. OK.
    Mr. Welch. And what is the status of us being able to have 
mentors? Your conclusion, as I understand it, is that without 
mentors this program is unlikely to be successful?
    Mr. Charles Johnson. And that is what we have been told by 
the individuals in-country and in the Department of Defense, 
that there are challenges with respect to getting enough 
mentors and because of competing demands, as we noted earlier. 
Because of competing demands with respect to Iraq, there have 
been challenges to getting an adequate number of mentors to 
meet the requirements that they have.
    Mr. Welch. All right. And we need those in order for this 
focused district development program to have any chance of 
success, correct?
    Mr. Charles Johnson. That is correct, based on what the 
Department of Defense says. There is what is called a mentor 
team, that is, mentors made up of a certain number of mentors: 
civilian mentors, as well as military mentors, as well as 
individuals who are also needed for force protection, so they 
go out as a team. As I noted earlier, the focused district 
development is a unit-based training, as opposed to individual-
based training, and so the number of mentors is important, 
having that complete set of mentors to go with those teams as 
they move out into the different provinces.
    Mr. Welch. So we have 500 DynCorp mentors now, or that is 
the projection, right?
    Mr. Charles Johnson. Correct.
    Mr. Welch. And what do we expect? How many military mentors 
will we have?
    Mr. Charles Johnson. Roughly the mentor requirement on the 
military side is roughly 2,400. There are roughly about 746 
military mentors that have been actually assigned, which is 
about 32 percent of what is the requirement. On the civilian 
side, it is roughly 550, and 540 have been assigned, so close 
to 98 percent. So there is a shortage on the military side in 
terms of military mentors.
    Mr. Welch. And these mentors are not fluent in the local 
language?
    Mr. Charles Johnson. Well, part of the mentoring team is to 
have--going forward with the focused district development, 
there are two linguists assigned to the mentor team.
    Mr. Welch. Right. So they have translators.
    Mr. Charles Johnson. Right.
    Mr. Welch. But the mentor himself or herself is not fluent?
    Mr. Charles Johnson. I am not sure if that is the case.
    Mr. Welch. What I understand is that the State Department's 
written testimony says that these shortfalls in the police 
mentors have resulted in roughly one-fourth of the police 
mentor teams required for the focused district development 
program being staffed.
    Mr. Charles Johnson. That is consistent with what we have 
been told.
    Mr. Welch. Yes. And what are your thoughts on how those 
shortfalls will impede the ability to implement the program?
    Mr. Charles Johnson. There are concerns with respect to 
making progress in getting these individual police forces to be 
fully capable of turning out their mission, to move from the 
different--
    Mr. Welch. So bottom line, then: in order to have any 
chance for this plan to be successful, we would have to ramp up 
the funding to have the number of mentors required?
    Mr. Charles Johnson. Well, I am not certain that funding is 
the issue, as opposed to having the human resources available 
to fill those requirements. I think the funding, from what we 
understand, is there and has been provided. It is a matter of 
having the resources available, which now are not available 
because they are in other priority areas.
    Mr. Welch. OK. Thank you.
    Mr. Tierney. Thank you. The gentleman makes a good point. I 
might just add that our guests this morning were also pointing 
out if you don't have the military mentors who have part of the 
responsibility to provide the security once you go out, as you 
get further from the urban areas and you try to put teams out 
there, you are just exposing the police that you have trained 
to being attacked by the extremists, or whatever, and, of 
course, that is going to result in death.
    So a question that we will have for our later panel is how 
are we going to get the capacity up there, so there are enough 
military mentors going out with those people, so that they are 
not just exposed. And if that continues the way it is going, 
how do you entice people to become police officers if you are 
going to continue to put them in that type of position?
    Thank you.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. Thank you.
    Afghanistan is a huge country with 32 million people.
    I apologize to you, Mr. Ward. Your issue is very important 
about justice, but I am going to use my 5 minutes just to 
continue as it relates to security.
    I have spent all my time in my visits in Iraq, not 
Afghanistan, but as I hear this story and I read this story I 
feel like it is just the same story being repeated. But I want 
to first say Iraq is an American operation. Afghan is a NATO 
operation. We are talking about the EU that has a gross 
domestic product of $16.8 trillion, the United States has $13.5 
trillion. They have a bigger gross domestic product, and we are 
spending our primary focus in Iraq. Their job is in 
Afghanistan, and we are a partner there as part of NATO.
    One, I want to ask you, Mr. Johnson, did you just look at 
this from the standpoint that it is our responsibility, or is 
it NATO's responsibility, which we are a part of?
    Mr. Charles Johnson. Our primary focus was on the larger 
job, which looked at the U.S. efforts to develop fully capable 
Afghan National Security Force, the army and the police, so we 
did look at the U.S. efforts.
    Mr. Shays. Let me ask this, though: is it NATO's 
responsibility or is it our responsibility? And are we there as 
a partner with NATO?
    Mr. Charles Johnson. We are there as a partner; however, we 
do have the lead in developing a fully capable Afghan National 
Army, and we have somewhat taken more of a lead role in 
developing the police.
    Mr. Shays. It is not the matter we have taken the lead; we 
have taken it because there is default, as I see it. I mean, 
this is their responsibility. The reason there is default is 
there are only four European countries that are willing to have 
their soldiers in harm's way. Now, it is one thing for them to 
criticize us in Iraq and say we shouldn't have been there. That 
is one thing they can say. But they can't say that about 
Afghanistan, and even there they are saying we have to do the 
heavy lifting.
    I wrestle with that. I wrestle with the fact of why should 
we have to when there are literally many, many countries in the 
EU, there are many countries in NATO. They have the financial 
capability and they are not stepping up to the plate.
    What I think I am hearing you say is, because they aren't, 
we have to. That is kind of what I am wondering.
    Now, what I really wonder, as well, is, now, just speaking 
with our part of this equation, what I wrestle with is this: in 
Iraq we said we were training their police, their border 
patrol, and their Army, but we weren't training enough of their 
police, their border patrol, and Army. How many are we training 
in a country that is very large, with a population of 32 
million people? How many police do we think we need? Is there 
any study that says what we need? And do we have that number? 
And are we trying to reach that number?
    Mr. Charles Johnson. Well, the number was based on an 
agreement, again, with the Coalition partners, as well as the 
Afghan government, so that number stands now at an authorized 
level of 82,000.
    Mr. Shays. I mean, isn't that a joke? Eighty-two thousand 
are going to police 32 million people? I mean, I think that has 
to be absurd. What did you think?
    Mr. Charles Johnson. We did not have an opinion on the 
actual number, because the number was reached as a part of the 
agreement.
    Mr. Shays. Well, what is the point of training people 
really well but only ending up with 80,000? By the time you 
spread them out among the population, they are going to have no 
critical mass? I mean, I wonder what we have in terms of police 
just in New York City. New York City has 19 million people. The 
thought that we would only have 80,000 police throughout all of 
New York State would be laughable.
    I am just going to start by saying I think the number is 
absurd.
    Mr. Charles Johnson. OK.
    Mr. Shays. And I am going to have to have someone explain 
to me how we arrived at that number. Is that just that is the 
political number we could reach, or the number we were willing 
to pay? What is the answer?
    Mr. Charles Johnson. It is the number that has been reached 
as a part of the agreement with the Coalition, as well as the 
Afghan government.
    Mr. Shays. Based on?
    Mr. Charles Johnson. I believe it started with the Bahn 
Agreement.
    Mr. Shays. But do you have any documentation that says that 
was based on a study that said that was what they needed?
    Mr. Charles Johnson. No, I did not, sir.
    Mr. Shays. OK.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Shays. I hope you will stay for 
the next panel, because that is a great place to put that 
question, and the answer would be interesting.
    Mr. Moran, you are recognized for 5 minutes.
    Mr. Moran. Thank you very much, Mr. Chairman.
    Incidentally, a terrific job on C-SPAN Morning Journal this 
morning on this very subject.
    Before I get to my question, my good friend Mr. Shays 
raises an interesting issue, but we recall we had a similar 
problem in the Balkans. We had to take the lead and NATO filled 
in after we had stabilized the situation, but invariably, you 
know, it is our military leadership that is going to have to 
put their chin up.
    What I wanted to ask about, it seems to me if we are going 
to have a sustainable judicial structure it is going to have to 
be something of a hybrid. Now, Mr. Ward talked about the 
informal system of justice, but we are really talking about 
tribal codes that have developed over centuries. They may 
differ from tribe to tribe, but there are similarities. It 
seems to me there is going to have to be some integration. We 
can't just impose the western canon of law on these tribal 
areas and think it is going to be readily adopted.
    On the other hand, it gives me pause to even suggest that, 
because we read about cases of women who have been gang raped 
whose only offense was that they were members of another tribe. 
We read about under-aged girls being given away to satisfy 
debts. I mean, those things are just anathema to our sense of 
most basic human rights. But, on the other hand, there is going 
to have to be some compromise. We can't just impose our system 
of jurisprudence in areas that have their own system of 
justice. And the personnel have developed credibility and 
leadership in terms of rendering that justice, so they have to 
somehow be incorporated, it seems to me.
    I wonder if you, Mr. Ward, and perhaps Mr. Johnson, if he 
has any thoughts about that, would address that so that we can 
have a truly sustainable judicial structure after we have 
eventually leave.
    Mr. Frank Ward. If I may, Mr. Moran.
    Mr. Moran. Yes.
    Mr. Frank Ward. Everybody understands that whatever system 
is built has to be Afghan driven. I mentioned earlier that the 
U.S. Institute of Peace was looking at the feasibility of 
integrating certain parts of the informal sector. As you noted, 
there are many different parts to that, also, but integrating 
that with the formal sector, they are working very closely with 
the Afghan government.
    Many people have reservations because of, as you mentioned, 
some of the human rights abuses. But what people are looking at 
is linking the more positive aspects of some of these informal 
sectors with the formal judicial system, which right now, as I 
said, only exists in Kabul and some other major areas.
    Some of the ideas that are being looked at are limiting the 
linkage to discrete issues, and perhaps whatever decisions are 
made by these particular bodies, such that these decisions 
would be appealable to a formal system, so that would be 
somewhat of a check.
    I believe the U.S. Institute of Peace just concluded their 
6-month study and will be issuing a report, and I think that 
will answer a lot of your questions.
    Mr. Moran. Thank you. That is helpful.
    Did you want to say anything, Mr. Johnson?
    Mr. Charles Johnson. Well, what I can add is that the 
gentleman is correct that the United States has been working 
with the Afghan government as part of the Afghan national 
development strategy, in which the United States is advising 
the Afghan government.
    Mr. Moran. Thank you.
    It was clear, Mr. Chairman, particularly with regard to the 
trip I had the privilege of going on with you and the majority 
and minority members and staff of the committee, that so much 
of our problem is the lack of civil society, and it is the lack 
of justice, if you will, or reliable, predictable form of 
justice that has to be implemented initially by the police, not 
by the military, but by the police who live there in the 
communities. Then people can rely on justice being served on a 
consistent basis.
    I know you have emphasized that, Mr. Chairman. I thank you 
for doing it. I thank you for giving this issue the priority it 
deserves.
    I yield back.
    Mr. Tierney. Thank you, Mr. Moran. Thank you for joining us 
on our trips there, for the work that you do on the 
Appropriations Committee in this regard, as well.
    Ms. Foxx, you are recognized for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    I believe that Mr. Shays has additional questions he would 
like to ask, and I would like to yield my time to him.
    Mr. Tierney. The gentlewoman yields to Mr. Shays.
    Mr. Shays.
    Mr. Shays. Thank you. I thank you for yielding.
    Mr. Johnson, we have the overall number. Where are those 
police dispersed?
    Mr. Charles Johnson. The police are dispersed throughout 
different provinces, in terms of once they are trained and 
dispersed as a unit, it is in various provinces throughout 
Afghanistan.
    Mr. Shays. What is the smallest unit of police that exists?
    Mr. Charles Johnson. We don't have the actual number of the 
smallest unit of police.
    Mr. Shays. How do they integrate with the National Security 
Forces, the military?
    Mr. Charles Johnson. I think there may be some provinces 
where you may have police as well as Army located in the same 
particular region or same area.
    Mr. Shays. In this undertaking, we have spent $10 billion 
to develop the Afghanistan National Army since 2002, which is 
not a lot of money--it is a huge amount of money, but in the 
realm of a country where you are creating a whole new Army, 
that is a small amount, and if you compare what we have done in 
Iraq it is an extremely small amount--and $6 million for the 
Afghan National Police. What have our allies invested in 
training the Army and police?
    Mr. Charles Johnson. I don't think we have that figure 
either, sir, but we do know that our allies are paying the 
police salaries, although we are contributing to that 
particular trust fund.
    Mr. Shays. I think probably the questions that I then have 
I will just ask of the next panel, but I am just struck with 
the fact that you should be able, because you would have these 
documents from the military, to tell us why 80,000 is the 
number that makes sense based on the needs that exist. Given 
that doesn't seem to be available, it is going to be very 
interesting to hear what we hear from the next panel.
    Mr. Tierney. Would the gentleman yield?
    Mr. Shays. With that, I would yield back.
    Mr. Tierney. Thank you.
    Just as we close down here, in your report, Mr. Johnson, 
you note that the Afghan National Police has reportedly grown 
in number to nearly 80,000 personnel. Concerns exist, however, 
about the reliability of this number. What district do you get 
that estimate from, and what concerns exist?
    Mr. Charles Johnson. The 80,000 number is actually reported 
by the Minister of Interior, and that number we obtained in-
country. We get monthly reports that we have received from the 
Department of Defense. The concerns are U.S. Government 
concerns, as well as the U.N., which has concerns with the 
accuracy and reliability of that number. Again, that is based 
on going out and trying to validate the accuracy of that 
number, as I reported earlier. In some census that were done, 
there was an inability to validate the numbers in some random 
samples that were done. I think there is more of an effort 
underway under the reform efforts to take a closer look at that 
particular issue.
    Mr. Tierney. Just so that everybody appreciates the 
magnitude of what we are doing here, there are 433 Afghan 
National Police units: zero are fully capable, 3 percent are 
capable with Coalition support; 4 percent are only partially 
capable; 77 percent are not capable at all; and 16 percent are 
not formed or not reporting.
    Mr. Charles Johnson. That is correct.
    Mr. Tierney. We will look to the next panel for some 
explanations of what that means and where we go from here and, 
as Mr. Shays indicated, whether or not the 80,000 is even 
enough if we were to get to that point.
    Mr. Shays, do you have one final question?
    Mr. Shays. I do. Thank you, Mr. Chairman.
    Mr. Tierney. Sure.
    Mr. Shays. You report states that the field level plan 
developed by the Combined Security Transition Command 
Afghanistan in January 2008 is inadequate because it ``is not a 
substitute for Defense and State policy guidance needed for 
near- and long-term resource planning.'' There is an 
assumption, it seems to me, that you implicitly believe that it 
is the Defense and State Department's responsibility. I just 
want to know, before we get to State and Defense, why you make 
that assumption?
    Mr. Charles Johnson. We acknowledge in our full report the 
field level plan that has taken place. There are some 
deficiencies in that plan in terms of things we see that are 
critical. One, the clear role of the State Department needs to 
be identified since they are a partner, in particular, in 
training the police, in particular. Also, we are looking for 
interim milestones, because I noted earlier it is important to 
be able to measure progress, which we have been--
    Mr. Shays. I understand that part. I am getting at another 
point. I will just try to make it one last time. You say it is 
inadequate, the Security Transition Command Afghanistan January 
2008 is inadequate because it is not a substitute for Defense 
and State policy guidance needed for near- and long-term 
resource planning. I am trying to get at the point: why is it 
our responsibility if it is NATO's?
    Mr. Charles Johnson. It is our responsibility because we 
are investing U.S. dollars, and we have invested over $6 
billion, and there are plans to invest additional U.S. dollars, 
so in terms of us spending that money and undertaking an 
effort, it is important that we have a plan for how we are 
going to utilize our own funds, and also for congressional 
oversight. We think that is important to know where we should 
have been by now, where--
    Mr. Shays. I will put it in my words. Because NATO isn't 
doing its job properly, you are basically saying it is up to 
State and Defense to step in?
    Mr. Charles Johnson. Given that we have taken the lead, it 
is important that we do have a plan that lays out where we are 
planning to go.
    Mr. Shays. Thank you.
    Mr. Charles Johnson. And you are correct that there are 
concerns with NATO's role.
    Mr. Shays. Thank you very much.
    Mr. Tierney. Mr. Johnson, as I understand it, we have the 
lead in this now, so it is an opportunity for us to plan and 
strategize about how all the resources will be applied 
hopefully in a more effective way.
    Mr. Charles Johnson. We have taken the lead.
    Mr. Tierney. Right. Thank you.
    I want to thank you, Mr. Johnson, Mr. Ward, and Mr. Hart, 
very much for your testimony here today, both written and oral, 
and appreciate the good work that all of you do. It helps our 
committee do its job, as well. We appreciate that.
    We will take about a minute recess here as we allow this 
panel to go about its way and invite our next panel up for 
testimony.
    Thank you again.
    Mr. Charles Johnson. Thank you.
    [Recess.]
    Mr. Tierney. Thank you for joining us, to all of our 
witnesses here. I note that we have yet another Johnson and we 
have another Ward. It is like deja vu all over again, except 
different on that, as Yogi Berra would say.
    We are now going to receive testimony from our second panel 
of witnesses. Our first will be Ambassador David T. Johnson, 
who is the Assistant Secretary of International Narcotics and 
Law Enforcement Affairs at the U.S. Department of State. Prior 
to this most recent appointment, Ambassador Johnson served as 
Deputy Chief of Mission for the U.S. Embassy in London. From 
1995 to 1997 he was the Deputy Press Secretary for Foreign 
Affairs at the White House and Spokesman for the National 
Security Council. Ambassador Johnson joined the U.S. Foreign 
Service in 1977.
    Major General Bobby Wilkes is retired. He serves as the 
Deputy Assistant Secretary of Defense for Central Asia in the 
Office of the Secretary of Defense. In this capacity he is 
responsible for advising the Secretary of Defense on all 
aspects of policy formulation for U.S. bilateral relations with 
central Asian countries. General Wilkes is a graduate of the 
U.S. Air Force Academy and completed his career as a Major 
General.
    Mr. Mark Ward is the Senior Deputy Assistant Administrator 
in the Asia Bureau at the U.S. Agency for International 
Development. He has the principal responsibility for the USAID 
programs in south-central and east Asia. He has also chaired 
the agency's Tsunami, Pakistan Earthquake, and Lebanon 
Reconstruction task forces. Mr. Ward's most recent overseas 
post was as a Mission Director in Pakistan from 2002 to 2003.
    Mr. Bruce Swartz is the Deputy Assistant Attorney General 
for the Criminal Division at the U.S. Department of Justice. He 
previously served as Deputy Independent Counsel for a Housing 
and Urban Development corruption investigation, as counsel for 
international law enforcement detail to Britain's Serious Fraud 
Office, and as Counsel to the Assistant Attorney General.
    Again, we want to thank all of you for being here with us 
today. We especially want to thank you for your continued 
public service in so many different respects. Your experiences, 
and your first-hand knowledge of the work that you are doing 
here, are going to help us have a robust and hopefully 
constructive discussion this morning, so welcome.
    Ambassador, if we could please start with you, you are 
recognized for 5 minutes for your opening statement.
    Actually, please stand and raise your right hands. We do 
swear in our witnesses, when the chairman remembers.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses answered in the affirmative.
    Now, Ambassador Johnson, that you are fully sworn and ready 
to go, your testimony, please.

STATEMENTS OF DAVID T. JOHNSON, ASSISTANT SECRETARY, BUREAU OF 
   INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
  DEPARTMENT OF STATE; MAJOR GENERAL BOBBY WILKES (RETIRED), 
DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR SOUTH ASIA, OFFICE OF 
  THE SECRETARY OF DEFENSE, U.S. DEPARTMENT OF DEFENSE; MARK 
WARD, SENIOR DEPUTY ASSISTANT ADMINISTRATOR, ASIA BUREAU, U.S. 
AGENCY FOR INTERNATIONAL DEVELOPMENT; AND BRUCE SWARTZ, DEPUTY 
ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT 
                           OF JUSTICE

                 STATEMENT OF DAVID T. JOHNSON

    Ambassador David Johnson. Thank you, Mr. Chairman and other 
distinguished members of the committee. We appreciate the 
opportunity you are giving us to come before you to discuss two 
of the State Department's critical missions in Afghanistan 
today: to train and equip the Afghan National Police and to 
develop its justice system.
    I have submitted a written statement that I will summarize.
    Mr. Chairman, my colleague, Ambassador Tom Schweich, had 
the pleasure to brief you, Congressman Moran, and your staff 
earlier this past April, and I look forward to continuing that 
discussion here today. Tom has served as the U.S. coordinator 
for Counternarcotics and Justice Reform in Afghanistan since 
March 2007 and leaves this week to return to the private 
sector. I wanted to take a moment to thank him for his service 
and note the contribution he has made to our country.
    Mr. Chairman, following the liberation of Afghanistan in 
2001, nearly three decades of armed conflict had left much of 
Afghanistan's infrastructure destroyed and its human resources 
depleted. Like other government institutions, the criminal 
justice sector had to be built almost entirely from the ground 
up. This morning I wish briefly to describe how the State 
Department and the Bureau I lead are working to establish an 
effective police force and criminal justice system.
    The U.S. program to train and mentor the Afghan National 
Police is a coordinated effort of the Departments of Defense 
and State. The Afghans' goal, which we support, is to develop 
an 82,000-strong professional and democratic police force 
capable of providing public security and enforcing the law. The 
development of the ANP from the national level to Afghanistan's 
most remote districts is challenging. Afghan capacity is 
lacking, and we need to link policing to a viable justice and 
corrections system.
    Moreover, in some areas, particularly in the south, the 
relatively lightly armed police faced heavily equipped 
insurgents, resulting in casualty rates three times higher than 
those of the Afghan National Army.
    In 2005, the Department of Defense was given authority over 
efforts to organize, train, and equip the Afghan National 
Security Forces, which includes the Afghan National Army and 
the ANP. Through its Combined Security Transition Command 
Afghanistan [CSTCA], the Department of Defense determines 
overall program requirements in accordance with policy 
direction from the U.S. Chief of Mission.
    INL provides critical support to the Defense Department by 
providing approximately 540 U.S. civilian police mentors and 
trainers to develop core curricula and to build institutional 
and individual capacity of the Afghan National Police.
    We operate a central training center in Kabul and seven 
regional training centers, where approximately 94,000 police 
have been trained since 2003.
    Civilian police advisors support the development of the ANP 
through on-the-job mentoring at headquarters and at field 
locations throughout Afghanistan.
    To provide a more comprehensive and unified approach to 
developing the ANP, the Afghan Ministry of Interior, with 
support from the international community, introduced the 
focused district development program late in 2007. This program 
is designed to build on earlier training by bringing the 
holistic, district-based approach to the development of the 
police. It provides comprehensive assessments, training, 
equipping, and on-the-job mentoring over a minimum of 6 months 
for each district.
    Interim U.S. assessments and other feedback indicate that 
this program has improved the capability and professionalism of 
the police.
    While these are encouraging signs, establishing an 
independent, capable, professional police force will require 
long-term effort by the Afghan government, as well as the 
international community.
    Mr. Chairman, an equally critical challenge to 
Afghanistan's security is the establishment of a functioning 
judicial system to complement Afghanistan's law enforcement 
capacity. An effective justice system not only improves public 
confidence in the police; it also deters crime and extends the 
reach and authority of the central government.
    Decades of war left the Afghan justice sector devastated, 
with prosecutors lacking even such basic equipment as paper and 
pens, and judges earning roughly one-fourth of the country's 
living wage.
    To help reinvigorate international efforts in the justice 
sector and encourage donors to get out of Kabul and branch out 
into the provinces, the United States hosted an Afghan Rule of 
Law coordination meeting in Dubai in late 2006, a meeting that 
helped lay the groundwork for the July 2007 Rome Conference on 
Afghanistan Rule of Law attended by the Secretary General of 
the United Nations, as well as the Secretary General of NATO.
    The Rome Conference resulted in a number of achievements, 
including pledges totaling $98 million and an agreement that 
the government of Afghanistan would develop a unified strategy 
to rebuild its justice sector. Based on that Afghan plan, donor 
countries would then develop an action plan to implement the 
strategy. This justice sector strategy was formally adopted as 
part of the Afghan National Development Strategy at this 
month's Paris conference.
    The U.S. justice sector strategy for Afghanistan seeks to 
strengthen the central government's institutions, expand 
justice assistance to the provinces, and improve donor 
coordination. Our efforts are divided among the Departments of 
State, Justice, and Defense, as well as U.S. Agency for 
International Development, the Drug Enforcement Administration, 
and the Marshals Service.
    With funding from INL, the Justice Department has deployed 
six senior Federal prosecutors and three criminal investigative 
advisors to train and mentor prosecutors and investigators of 
the Criminal Justice Task Force.
    We also support 30 U.S. contract advisors and 35 Afghan 
legal consultants for the justice sector support program.
    In early 2006 we established the correction systems support 
program. It provides prison guard training, records and 
information management, and infrastructure and equipment 
support.
    We are also supporting a U.S. Master of Laws program for 
visiting Afghan law professionals and a U.S. Institute of Peace 
Project to help Afghans establish an appropriate jurisdiction 
for their informal justice system.
    To engage the private sector in justice sector development, 
Secretary Rice and the Afghan Attorney General launched the 
Public/Private Partnership for Justice Reform in Afghanistan in 
December 2007. Through this program, law firms and law schools 
provide support for low-cost, high-impact projects for Afghan 
judges, prosecutors, and defense attorneys. One of their 
programs is going on at this time at the University of Utah 
School of Law.
    Mr. Chairman, while we have made a great deal of progress 
since 2001 in both the police and justice sectors, many 
challenges lie ahead. Overcoming Afghanistan's troubled past 
and securing a lasting democratic and just society for the 
future will take time and effort, both by the Afghans and the 
international community.
    Again, thank you, Mr. Chairman, for the opportunity to 
appear before you today. I look forward to your questions.
    [The prepared statement of Ambassador Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T1638.040
    
    [GRAPHIC] [TIFF OMITTED] T1638.041
    
    [GRAPHIC] [TIFF OMITTED] T1638.042
    
    [GRAPHIC] [TIFF OMITTED] T1638.043
    
    [GRAPHIC] [TIFF OMITTED] T1638.044
    
    [GRAPHIC] [TIFF OMITTED] T1638.045
    
    [GRAPHIC] [TIFF OMITTED] T1638.046
    
    [GRAPHIC] [TIFF OMITTED] T1638.047
    
    [GRAPHIC] [TIFF OMITTED] T1638.048
    
    [GRAPHIC] [TIFF OMITTED] T1638.049
    
    [GRAPHIC] [TIFF OMITTED] T1638.050
    
    [GRAPHIC] [TIFF OMITTED] T1638.051
    
    [GRAPHIC] [TIFF OMITTED] T1638.052
    
    [GRAPHIC] [TIFF OMITTED] T1638.053
    
    [GRAPHIC] [TIFF OMITTED] T1638.054
    
    [GRAPHIC] [TIFF OMITTED] T1638.055
    
    General, you are recognized for 5 minutes.

                   STATEMENT OF BOBBY WILKES

    General Wilkes. Thank you, Chairman Tierney and members of 
the subcommittee, for the opportunity to testify today on the 
U.S. Government's efforts to train and equip the Afghan 
National Police and enhance the Afghan justice system. The 
long-term prospects of the broader reconstruction efforts in 
Afghanistan are dependent, to a large extent, on progress in 
these areas.
    My comments will focus on the Afghan National Police 
development, as the Defense Department's equities lie 
principally in this mission. Afghan National Police development 
is part of the broader effort to develop the Afghan National 
Security Forces, which include the Afghan National Army. The 
in-state for the Afghan National Police was articulated in the 
2006 Afghanistan Compact as follows: ``By the end of 2010, a 
fully constituted, professional, functional, and ethnically 
balanced police, with a combined force of up to 62,000, will be 
able to meet the security ends of the country effectively and 
will be increasingly fiscally sustainable.''
    In May 2007, the fifth meeting of the Joint Coordination 
and Monitoring Board [JCMB], approved an expansion of the ANP 
to 82,000 personnel at the request of the Ministry of Interior 
of Afghanistan.
    In recognition of a lack of resources and unity of effort 
within the international community, the United States assumed a 
more expansive role in ANP development in mid 2005. The 
Department of Defense, through the Combined Security Transition 
Command Afghanistan [CSTC-A], in coordination with the State 
Department, leads the effort to support the Afghan government 
in ANP development.
    Strategic direction for U.S. efforts to support the ANP 
development program is developed by the U.S. Interagency. A 
strategic review agreed upon in November 2006 concluded that 
there was a need to accelerate the development of the ANSF, and 
particularly the ANP.
    As the security situation in Afghanistan has evolved in the 
previous 2 years, and we now face a resilient insurgency, the 
need for an effective and professional ANP could not be 
greater. Police are the most visible expression of the Afghan 
populace of the central government's writ and strength. The 
insurgents recognize this fact, and it is no surprise that they 
are increasingly targeting the ANP.
    Throughout 2007 ANP combat losses were roughly three times 
higher than those of the ANA. Importantly, despite this 
statistic, the ANP in most cases remain in the fight.
    Currently the ANP has fielded approximately 97 percent of 
its forces, over 79,900 assigned out of 82,000 authorized. 
However, the ANP continues to lag behind the ANA in capability. 
This is due, in part, to the fact that the United States did 
not become significantly involved in the police development 
until 2003, and the Defense Department did not begin its 
expanded role until late 2005. Moreover, the majority of the 
funding, the 2007 supplemental, was not available until July 
2007, with equipment deliveries now underway and largely 
targeted toward the end of this year.
    ANP development also has been hindered by endemic 
corruption and an insufficient number of trainers and mentors, 
among other things. Our interagency efforts are focused on 
addressing these shortcomings.
    A key focus of effort is mentoring the ANP. CSTC-A, in 
conjunction with State Department, mentors police at all 
levels, although the current program does not reach all 
locations. The objective is to provide a police mentoring team 
to each police district and provincial and regional 
headquarters. PMTs are 8- to 14-member teams comprised of 
civilian professional police, military personnel, and linguists 
to assist, coach, and mentor the ANP. There currently are some 
540 civilian police advisors and 900 military police mentors in 
Afghanistan. Because mentoring must occur locally in all of 
Afghanistan's 364 districts, CSTC-A is currently unable to 
cover the majority of ANP units and organizations.
    In an effort to maximize the effects of limited resources 
on overall ANP development, the Afghan Ministry of Interior in 
November 2007, with support from CSTC-A, launched the Focus 
District Development program to concentrate training, 
equipment, and mentoring in priority districts. FDD consists of 
phases, which include assessing the status of the police in a 
giving district; withdrawing the police for 8 weeks of 
training, equipping, and leadership changes necessary; and, 
finally, returning the police to a district with intensive 
follow-on mentoring and monitoring.
    FDD is planned to reform more than 50 priority districts by 
the end of this year. While the FDD program is still relatively 
new, initial perceptions are favorably. Importantly, FDD could 
act as a catalyst for similar programs that might benefit other 
government branches.
    As the ANP continues to develop, it is essential that we 
are able to measure their performance. CSTC-A has in place a 
system that assesses ANP units' ability to perform their 
mission. Units are assessed with one of the four capability 
milestones, ranging from CM4, which is least capable, to CM1, 
which is most capable. At present, 12 ANP units--6 ANCOP 
battalions and 6 district uniform police units--are assessed as 
being CM2, which indicates that they still require occasional 
external assistance.
    Ensuring the ANP has the necessary equipment to perform its 
mission is critical to a broader ANP development program. The 
ANP basic kit includes sidearm, rifle, a uniform, body armor, 
and short-range radios. Units at the squad level are equipped 
with tactical vehicles, first aid supplies, machine guns, and 
grenade launchers.
    Pay and rank reform is also a key element of the ANP 
development program. Rank reform looks at over 17,000 top 
officers within a top-heavy structure, and through extensive 
testing and review and an international vetting process 
reducing the officer corps by more than 9,000 personnel. The 
Ministry of Interior also is developing a comprehensive 
promotion and recognition program.
    Additionally, pay parity is being implemented to provide 
police with salaries comparable to the ANA. Efforts also are 
underway to improve the overall payment process, such as 
verifying police rosters and establishing electronic pay 
systems and funds transfers. By the end of this May, 19 
provinces had implemented electronic funds transfers for police 
to be paid directly.
    Steps are being taken to enhance accountability within the 
ANP. These include an identification card program, which will 
permit tracking of police personnel from accession to attrition 
using a record management system.
    The Ministry of Interior also is developing a new 
disciplinary and personnel regulations and has commissioned a 
legislative drafting committee to revise outdated police 
personnel laws to provide for the administrative separation of 
corrupt or inept police personnel.
    To conclude, I believe we are implementing the programs and 
policies and making necessary investments and adjustments to 
realize a significant improvement in the ANP in the coming 
years; yet much will depend on our ability to expand the number 
of personnel assigned to the crucial mentoring mission, as well 
as the Ministry of Interior's own ability to implement internal 
reforms to enhance the professionalism and integrity of its 
personnel.
    Thank you, sir.
    [The prepared statement of General Wilkes follows:]

    [GRAPHIC] [TIFF OMITTED] T1638.056
    
    [GRAPHIC] [TIFF OMITTED] T1638.057
    
    [GRAPHIC] [TIFF OMITTED] T1638.058
    
    [GRAPHIC] [TIFF OMITTED] T1638.059
    
    [GRAPHIC] [TIFF OMITTED] T1638.060
    
    [GRAPHIC] [TIFF OMITTED] T1638.061
    
    [GRAPHIC] [TIFF OMITTED] T1638.062
    
    [GRAPHIC] [TIFF OMITTED] T1638.063
    
    Mr. Tierney. Thank you, General.
    Mr. Ward.

                     STATEMENT OF MARK WARD

    Mr. Mark Ward. Chairman Tierney, Ranking Member Shays, 
members of the subcommittee, thanks very much for asking USAID 
also to participate in this hearing on U.S. assistance to the 
justice sector in Afghanistan.
    We spent $4 billion on development programs in Afghanistan, 
USAID has, since 2002, to encourage economic growth led by the 
private sector, establish a democratic and stable state 
governed by the Rule of Law, and provide basic services like 
health and education for the people.
    To help Afghanistan become less donor dependent and stand 
on its own feet, it needs a strong private sector and greater 
domestic and foreign investment, and USAID is working to build 
institutions that strengthen the private sector, encourage 
investment, and create jobs and taxes to sustain Afghanistan in 
the future.
    Now, the security situation in the country is real, and my 
fellow witnesses are here to describe the work that we are 
doing to build a professional Army and police force, but it is 
also important that we ensure that Afghanistan has strong 
institutions in place so that, as the security situation 
improves, Afghanistan will be able to attract and effectively 
utilize greater private investment. After all, that is the 
future.
    Improving justice institutions, I am happy to say, is also 
a priority for the Afghans. Last week in Paris the donor 
community celebrated the launch--you heard about this this 
morning--of the Afghan National Development Strategy, and one 
pillar of that new strategy is governance, Rule of Law, and 
human rights.
    The goal for the justice sector is strengthening democratic 
processes and institutions, human rights, the Rule of Law, 
delivery of public services, and government accountability. And 
the new strategy specifically recognizes the need to reform the 
justice system as a way to improve the business environment and 
increase investments and jobs.
    So, specifically, what are we doing with the Afghans? USAID 
is helping the Ministry of Commerce, the Central Bank, and the 
Parliament to draft good commercial legislation. The work 
focuses on specific priorities identified by the Afghan 
Ministries, the private sector, and the donor community for 
attracting more investment into the country.
    With our encouragement, the process is much more open now. 
For example, a conference for prominent Parliamentarians--I am 
sure it will include some of these prominent Parliamentarians 
behind us--is planned for next month to introduce, promote, and 
solicit comments on five new laws that have recently been 
drafted by the Ministries of Commerce and the Central Bank to 
benefit the private sector.
    We are also working with the judicial system, primarily 
through training programs. We train sitting judges in the 
classroom, in the courtroom, and in service. We train them on 
commercial dispute resolution, on standards for legal 
education, and on court administration, personnel management, 
accounting, budgeting, and their own internal processes.
    The results are pretty impressive so far. We have trained 
over 70 percent of the sitting judges in Afghanistan, and we 
plan to train all of the sitting judges by the end of this 
fiscal year.
    There is increased awareness among the Afghan people 
regarding their basic legal rights. I heard the question to the 
panel this morning about perceptions among the Afghan people, 
and as you heard, the latest polls show that there is growing 
confidence in the ability of their courts to resolve disputes.
    Civil filings in the courts are growing each quarter, and 
for the first time in 30 years, judges are conducting public 
trials and appearing in the media to explain what courts are 
for.
    We also provide training to members of the Law and Sharia 
Faculties at Kabul University and three regional universities 
about teaching methodology, legal writing, and research, and we 
also teach English. And with our support this group of legal 
and religious scholars have played a role in establishing a 
standard law school curriculum for Sharia Law faculty and 
students. This is an important benchmark to ensure a strong 
legal professional, and I am pleased to say that the new 
curriculum that both the Sharia Law School and the law faculty 
have adopted stresses very modern secular commercial 
principles.
    We, as you have heard, also sponsor study tours for the 
Afghan law faculty to go to the United States and other 
countries in the region.
    At the Afghan Supreme Court, we have helped put in place a 
new case management and tracking system which will be rolled 
out to all courts in the country by the end of this fiscal 
year.
    Working with the government of Italy, we have helped 
establish the National Legal Training Center. It opened a year 
ago on the campus of the University of Kabul, and is used for 
continuing legal education and accreditation programs within 
the legal community. I was there a couple of weeks ago and very 
pleased to see that it is open and full of students, judges and 
others, using classes.
    We also tried very hard to include women in all of our 
programs. We have had over 100 women judges and judicial 
candidates participate in our programs, and I am very pleased 
to say, particularly to the women in the room, that our studies 
indicate so far that the women in the judicial training courses 
are out-performing the men. Maybe there is no surprise there.
    We have built and rehabilitated 40 courthouses and justice 
facilities in 17 provinces in the country.
    Just to sum up, the Afghan Support Conference that was held 
last week in Paris, the United States pledged $10.2 billion to 
help the people of Afghanistan, and in that vein, we will work 
with institutions such as the Parliament and the Supreme Court 
and others to try to build a transparent and predictable court 
system that will benefit the private sector. We think a strong 
private sector is vital to Afghanistan's stability to create 
jobs and opportunities where there were none before.
    Thanks very much.
    [The prepared statement of Mr. Ward follows:]

    [GRAPHIC] [TIFF OMITTED] T1638.064
    
    [GRAPHIC] [TIFF OMITTED] T1638.065
    
    [GRAPHIC] [TIFF OMITTED] T1638.066
    
    [GRAPHIC] [TIFF OMITTED] T1638.067
    
    [GRAPHIC] [TIFF OMITTED] T1638.068
    
    [GRAPHIC] [TIFF OMITTED] T1638.069
    
    [GRAPHIC] [TIFF OMITTED] T1638.070
    
    Mr. Tierney. Thank you, Mr. Ward.
    Mr. Swartz, please.

                   STATEMENT OF BRUCE SWARTZ

    Mr. Swartz. Mr. Chairman, Ranking Member Shays, 
distinguished members of the committee, thank you for this 
opportunity to discuss the role of the U.S. Department of 
Justice in U.S. efforts to enhance the justice sector in 
Afghanistan. DOJ prosecutors and law enforcement agencies are 
and have been on the ground in Afghanistan. They have followed 
a focused strategy of developing and working with vetted Afghan 
teams of prosecutors and agents. The work of our four 
components on the ground in Afghanistan has both advanced the 
Rule of Law and has resulted in significant law enforcement 
successes.
    First, since 2005 we have had a team of senior Federal 
prosecutors working in Afghanistan both on law reform and 
working and developing and mentoring the Criminal Justice Task 
Force. As Ambassador Johnson noted, we have received State 
Department funding for these efforts.
    The work of these prosecutors has resulted in remarkable 
successes. First, on the legislative front, our prosecutors 
worked closely with their Afghan colleagues to develop the 
counternarcotics law of Afghanistan, which has put in place 
innovative techniques and possibilities with regard to law 
enforcement investigations in narcotics cases. That work has 
resulted in, for instance, the first controlled delivery of 
narcotics in the United States, resulting in a prosecution 
here.
    Second, as I noted, these teams, our prosecutors teams, 
have developed and mentored the Criminal Justice Task Force, a 
group of specially vetted and trained investigators and 
prosecutors that work with the Central narcotics Tribunal of 
Afghanistan. They have done hundreds of narcotics anti-
corruption cases and the work of the prosecutors that we sent 
by DOJ to Afghanistan have also resulted in successes here in 
counternarcotics prosecutions, including the first conviction 
of a narco-terrorist, Khan Mohammed, and the conviction of a 
designated foreign kingpin, Baz Mohammed, in the United States.
    The second component that we have present in Afghanistan, 
DEA, has also played a central role. Shortly after Coalition 
forces entered Afghanistan, DEA established its long contacts 
in Afghanistan and re-established its office there. They have 
worked closely with the training of the counternarcotics police 
of Afghanistan, and in particular with three specialized units 
of the counternarcotics police: the NIU, the National 
Interdiction Unit; the Sensitive Investigations Unit [SIU]; and 
the TIU, the Technical Investigations Unit.
    Here, too, that work has resulted in significant successes 
with significant investigations having been conducted, arrests 
and prosecutions followed, including the largest seizure ever 
of narcotics, the seizure last week of 235 metric tons of 
hashish in Afghanistan.
    Third, the FBI has also been present in Afghanistan, both 
through its legal attache office, which has established a long-
term presence, and with agents from the Counter-Terrorism 
Division, and agents from the Criminal Justice Information 
Systems Division. We have worked carefully both on narcotics 
cases in conjunction with DEA, but also with counterterrorism 
matters. And the Criminal Justice Information Systems Division 
in particular has launched a very important biometrics project 
that has captured more than 16,000 biometric records, both of 
persons that are incarcerated in Afghanistan, but also as part 
of the vetting system for police and the Army. We have also, 
through the FBI, engaged in training of our Afghan 
counterparts, including training in these biometric systems.
    Fourth, the U.S. Marshal's Service has been present for the 
critical role of judicial security and security of those who 
testify in court. Obviously, a court system cannot function 
unless that kind of security is in place, and the Marshal 
Service brings unparalleled expertise to that task.
    Finally, if called upon, the experienced police and 
corrections experts of our police training arm, ICITAP, are 
ready to serve in Afghanistan should that prove useful.
    In conclusion, I would like to commend the courage and 
professionalism of the teams that we have deployed to 
Afghanistan, and to note that their work has made both the 
citizens of Afghanistan and the citizens of the United States 
safer.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Swartz follows:]

    [GRAPHIC] [TIFF OMITTED] T1638.071
    
    [GRAPHIC] [TIFF OMITTED] T1638.072
    
    [GRAPHIC] [TIFF OMITTED] T1638.073
    
    [GRAPHIC] [TIFF OMITTED] T1638.074
    
    [GRAPHIC] [TIFF OMITTED] T1638.075
    
    [GRAPHIC] [TIFF OMITTED] T1638.076
    
    [GRAPHIC] [TIFF OMITTED] T1638.077
    
    [GRAPHIC] [TIFF OMITTED] T1638.078
    
    [GRAPHIC] [TIFF OMITTED] T1638.079
    
    [GRAPHIC] [TIFF OMITTED] T1638.080
    
    [GRAPHIC] [TIFF OMITTED] T1638.081
    
    [GRAPHIC] [TIFF OMITTED] T1638.082
    
    [GRAPHIC] [TIFF OMITTED] T1638.083
    
    [GRAPHIC] [TIFF OMITTED] T1638.084
    
    Mr. Tierney. Thank you, Mr. Swartz.
    I thank all of our witnesses here for their testimony.
    Let me start with the questioning.
    General, looking at the report of GAO, there are zero fully 
capable units of the police, 3 percent capable with Coalition 
support, 4 percent partially capable, 77 percent not capable, 
and 16 percent where the unit hasn't been formed or isn't 
reporting. We have your own assessment, Defense assessment, of 
the capabilities. Uniformed police, only 6 are partially 
capable, 6 capable with Coalition support, 296 units capable, 
57 not formed or not reporting. Border police, nobody fully 
capable, nobody capable with Coalition support, nobody 
partially capable, 39 or 33, I guess, not capable. Civil order 
police, 6 only capable with Coalition support, 2 partially 
capable, 2 not capable at all, 10 not formed or not reporting. 
Counternarcotics, 10 only partially capable, 3 not capable, 2 
not reporting or not formed.
    The bottom line is I take that and I measure it against 
your statement that by the end of 2010 a fully constituted, 
professional, functional, ethnically balanced Afghan National 
Police and Afghan Border Police with a combined force of up to 
62,000 will be able to meet the security needs of the country 
effectively and will be increasingly fiscally sustainable. Do 
you still stand behind that?
    General Wilkes. Sir, that is our plan.
    Mr. Tierney. Well, it is your plan, but how realistic is 
your plan?
    General Wilkes. Well, as you know, the investment on this 
was late to need. We had funds released in the summer of 2007.
    Mr. Tierney. I don't mean to cut you short. I know the 
problems that you have had, and you recounted them well, so my 
real question is: is 2010 still your year, or are you saying 
now, understanding all the complications that came in, I wish I 
had set some later date?
    General Wilkes. As of right now we are going to stick with 
the 2010. There are a couple of issues there that you are 
probably well aware of. One is assume the equipment gets in in 
2008 as planned, and it is still planned to arrive in 2008, and 
some of the vehicles as late as summer of 2009, but that also 
assumes that we get the mentors that we need in there.
    Mr. Tierney. So you are basing your assumption that you are 
going to get the mentors on?
    General Wilkes. Yes, sir.
    Mr. Tierney. No, no. What are you basing the assumption 
upon? You have an assumption that you are going to get the 
mentors. Why do you believe this to be the case? What resources 
have you been given?
    General Wilkes. Well, there is a RF-620-MOTU that is out, 
and that has been out on the street since late 2006. We have 
known that this requirement is there and we are at the point 
now where we need to fill it. In the last couple of months we 
have put the 27 Marines in, which is a unit of about 1,000 
Marines. They have gone into RC South. That will be part of the 
contingent that is doing this police security and training.
    Right now there is a review underway with Joint Forces 
Command and the Joint Staff and CENTCOM looking at continuing 
that capability. Additionally, we are continuing to ask NATO to 
fulfill their requirement that is a shortfall in their CG-SOAR 
of three battalions. That was brought up in recent ministerial 
action over in NATO. If that can be filled, then we will have 
the capacity we need to do the training.
    Mr. Tierney. So we are still wishing and hoping, is what it 
comes down to, and pressing on that, but with no assurances? We 
still have people tied up in Iraq, where the report is pretty 
clear that is where the equipment need priorities have been, 
and that is where the police mentors have been, so I am just 
not hopeful that 2010 is realistic, and I hope you understand 
why I say that.
    Let me move on to another question if I can. It seems to me 
that people are making heroic efforts here, from Justice all 
the way down the line on that, but isn't the real question 
scope? We can train some judges, Mr. Ward, we can take care of 
some prosecutors, Mr. Swartz, and all that, but do we have 
enough judges trained? Do we have enough prosecutors, enough 
lawyers, enough police? And how do we get this up to scope? Is 
the human capacity within Afghanistan there? Ambassador?
    Ambassador David Johnson. Mr. Chairman, as several of your 
colleagues have pointed out, as have we, we started off with a 
country working that had been at war for almost 30 years.
    Mr. Tierney. I understand.
    Ambassador David Johnson. So we believe that the capacity 
can be built, but no, the capacity is not there right now. The 
Afghans have adopted a plan on justice that was part of the 
document that was adopted in Paris. It gives our international 
partners, as well as us, an ability to work with them more 
clearly to bring donors, not just in Kabul but outside, so I 
think the capacity can be built, but no, the capacity is not 
there yet.
    Mr. Tierney. And I suspect it is not going to be built by 
2010, either. That is just an observation from here from what I 
am hearing today on all of these things, whether it is judges, 
or prosecutors, or police, or the military component of the 
police mentors, all of that. It seems troubling that we are 
working on these. The 2010 numbers are much more optimistic. We 
have to be honest with the American people and the Afghan 
people, as well. We have exhausted a lot of people's patience 
with foreign ventures in Iraq. People in this country are 
pretty upset about that situation. There has been a great 
effort by the administration to conflate Iraq with Afghanistan, 
and now they wish they could deconflict it, as they say, 
because people have lost their patience everywhere. Yet we have 
a situation here where you are saying 2010 you hope, but you 
don't know that you are going to have all these things in 
place, and this is a long-range effort on that.
    Is 82,000 police officers actually ever going to be enough? 
I think Mr. Shays raises a good question. Whoever feels capable 
may answer that.
    Ambassador David Johnson. The number 82,000 was reached by 
a process of consultation with the Afghans and with the 
international community, including ourselves, who were 
supporting the training operation. It is possible that it will 
need to be augmented. It has been augmented in the past. The 
82,000 is the most recent number.
    Mr. Tierney. Is there any metrics or anything used? Is 
there some basis for these numbers?
    Ambassador David Johnson. If we were to look at the Los 
Angeles police force, it is a little more than them. It is a 
little less than New York City. I don't think those are really 
good measures, but they do tell you that we are some place in 
the ball park. It is not grossly out of kilter with what a 
normal police force would be. But we are in a different 
environment here, and so I think that measuring up what the 
police ratio ought to be has to be more closely coordinated 
with what we are building in terms of an Army, because we are 
dealing with a police force that is operating within an 
insurgency environment.
    Mr. Tierney. As I understand it, it has already gone from 
52 to 60-odd to 75 and now 82, and I think the point is that 
this is a quite different situation than you find in Los 
Angeles or New York, and a lot more complicated activities for 
the police besides just what we would think of as community 
policing. So I would guess that is going to get quite 
complicated on that.
    This new Focus District Development, General, I know that 
you say you plan to have 50 of these in place by the end of 
2008. How many are actually going to be in place by the end of 
2008?
    General Wilkes. Sir, that is the plan right now, and it 
should be 50.
    Mr. Tierney. How many are in place right now?
    General Wilkes. We are about halfway through that. We have 
about 25 in the districts. In the process, we are in phase 
three. As I explained, it is kind of a 6-month or so process 
from start to finish of each of these districts, and they are 
overlapping throughout the time. So we are finishing up with 
the third district here this month and beginning on a fourth 
cycle here, so we should get through the full six by the end of 
this year.
    Mr. Tierney. And six districts would be 50 units?
    General Wilkes. Fifty units. Yes, sir.
    Mr. Tierney. All right. And there are how many total units 
needed for the entire country?
    General Wilkes. We would like to have one for each 
district, 365.
    Mr. Tierney. So how many years is that projected out at 
this pace?
    General Wilkes. At this pace it is probably about a 5-year 
plan, so 2012.
    Mr. Tierney. So 2013, not 2010, right?
    General Wilkes. Yes, sir.
    Mr. Tierney. One of the issues that was brought up by our 
guests here today, and I think it was very pertinent, is if you 
take the police and you train them such as you have them, and 
you put them out into a district and you don't have enough 
security for them, you have wasted a lot of time and endangered 
a lot of people. That seems to be happening over and over 
again. What are we doing about that?
    General Wilkes. With the Focused District Development, we 
provide the trainers, mentors, the security piece that goes 
with them, and those folks go out and stay with them for the 
next few months.
    Mr. Tierney. And that unit is going to be able to sustain 
an attack by extremists or Taliban or anyone that might come in 
and try to take over that village or that community?
    General Wilkes. We are attempting to train them to--I won't 
say quite the SWAT level, as you might expect in the States--
but we are training them beyond what normal police you would 
see on the street.
    Mr. Tierney. How does it hurt the police mission of dealing 
with people in the community and learning nation intelligence 
of what is going on with the insurgents or whatever, and being 
able to gain their confidence, if you are also training them to 
have a military posture? Is there a conflict between their 
military mission and their police mission and the way they are 
perceived by the public, and does that create a problem for us?
    General Wilkes. We are very careful not to militarize the 
police. That was one of the early on issues that DOD had in 
undertaking the police training role. We do not want to create 
a military force there. You do have to keep the police focused 
on what they are doing with the community. So we are not 
militarizing them; we are training them to be able to handle 
situations and extremists, and we provide a capability. The 
Afghans also provide capability via the ANCOPs that would be 
able to come in at the national level and help if it gets into 
a large riot-type situation.
    Mr. Tierney. Here is what we are told is the problem from 
people in Afghanistan: as you are looking for the numbers of 
police people to fill up the personnel slots that you need, the 
farther you get out from the urban areas, the more rural, the 
less educated the pool of people available for that. In fact, 
quite uneducated, though not a lot of numbers. So what are we 
going to do to try to get that capacity up if we actually run 
out of people that have even a high school diploma, a high 
school education, and certainly beyond that? How do we get that 
level of people that don't have the sufficient education up 
quickly enough to sustain this effort to get a full force out 
where we need to get them out with at least sufficient training 
to do the job?
    General Wilkes. This is a very difficult issue for us. We 
are vetting the people through the local elders, so therefore 
you are kind of putting a trust factor in the senior 
leadership, and they are picking the people that can succeed in 
this. They won't necessarily be at the education level that you 
and I would expect, but they will have the training, they will 
know how to use the weapons and how to do the basic police 
mentoring. The senior leadership in those areas will have more 
the conscience, if you will, of how to do police work, so we 
are relying on the elder leadership.
    Mr. Tierney. I assume that gives us some issues of either 
corruption or patronage if you then pay the police at a higher 
level to try to attract people in, and there will be some 
demand for those jobs, and under the tribal system and others 
we hope the demand goes on capability as opposed to taking care 
of our friends.
    General Wilkes. Yes, sir.
    Mr. Tierney. Mr. Shays, you are recognized for 10 minutes.
    Mr. Shays. I yield.
    Mr. Tierney. Mr. Lynch, you are recognized for 10 minutes.
    Mr. Lynch. Thank you. Thank you very much, Mr. Chairman.
    Again, I want to thank the panelists for coming in, 
Ambassador, General, Mr. Ward, Mr. Swartz.
    I would like to talk about a couple of things. It is an 
overlap. I have heard the General talk and also Mr. Swartz, we 
had a problem in Iraq, and I don't mean to compare the systems, 
but the processes are the same. We had a system in Iraq on 
weapons distribution to both the military and to the police 
where GAO reported to us on the committee and to the chairman 
that about 190,000 small weapons had gone missing because we 
didn't have an accurate tracking system.
    Now, you have described here this morning a biometric 
system. I was in Tataji, the weapons depot in Iraq just north 
of Baghdad, a few weeks back. They had a system where we 
brought the cadets in and the personnel in. We photographed 
them. We got fingerprints from them. We did an iris scan. We 
had a registration of their weapon. We even got a photograph of 
them posing with their weapon before it went out the door.
    Now, when I am in Afghanistan next month is that the system 
I am going to see?
    General Wilkes. Sir, I believe that is where we are headed. 
I don't know if you were there today that you would see that, 
but that is what we are trying to do, all these different 
reforms. We are trying to get the ID cards. I think about 
20,000 or so have been issued so far, and we are headed in that 
direction.
    We are also working with the Ministry of Interior on 
reforms with their Inspector General process and how they will 
do investigations or inspections out there to ensure that this 
equipment is available.
    Mr. Lynch. Thank you.
    Mr. Swartz, have you got anything on that?
    Mr. Swartz. Chairman, I will have to confirm that our quick 
capture technology that the FBI has put in place will be used 
for that purpose, but certainly we have attempted, as I noted, 
to ensure that we have gotten the biometrics of Army members 
and national police members to help ensure security in the 
future.
    Mr. Lynch. Thanks. I am hearing a little back-pedaling, but 
let me assure you that is the system that we need here in 
Afghanistan. I think May was the first month, at least the 
report I read, May 2008 was the first month in which had more 
U.S. casualties in Afghanistan than we did in Iraq. That is a 
watershed moment here.
    I do want to say, Mr. Swartz, I had a chance to work with 
DEA in Afghanistan a few months ago, and I agree they are doing 
a great, great job. I think some of the structural deficiencies 
here that we are exposing is, No. 1, you have a country here in 
Afghanistan that about 5 percent of the people have access to 
electricity--5 percent of the people have access to 
electricity, 95 percent do not, and so we have a structural 
problem there. Also, the literacy rate is below 20 percent for 
men and it is below 10 percent for women, so we have some real 
structural problems there that it is going to be tough to get 
at.
    My last question is this. Again, we have a situation that 
has a parallel in Iraq. The legal system that we have in place, 
I think it was inherited from the Judge Advocacy system in 
France. The system in Afghanistan, first of all, we don't have 
a dual role for defense attorneys. This is basically a system 
that the judge is the finder of fact and, in the best case, the 
appeals judge is going to review his application of law to the 
facts. We don't have a system in which defense attorneys in our 
own system have an opportunity to defend the accused in that 
system. Even if we did, under their system the judge may decide 
on their own not to hear the defense attorney on a given case. 
That is a structural problem within their own system of the 
Rule of Law.
    How do we get at that? It seems to me that the credibility 
of the government, itself, and of their system is going to rely 
in great part on the ability of the accused to have some 
semblance of rights. Are we trying to get at that, No. 1, 
getting defense attorneys actually trained and adopting some 
type of system where they would actually have a role in the 
Afghan legal system? Ambassador.
    Ambassador David Johnson. Congressman, we are working hard 
on bringing the formal system of criminal law into some sort of 
union with the informal system through a grant we have through 
the U.S. Institute for Peace, which was mentioned by one of the 
previous witnesses in the previous panel. We are attempting to 
help unite these, along with the other ways, including 
religious law.
    I think the point that you make about whether code law is a 
form which gives defense an adequate opportunity to defend 
their client is something that other people with code law 
systems may disagree with you about. There is a role for the 
defense attorneys. We do have a program for training defense 
attorneys to operate within this system.
    On the other hand, I think Mr. Swartz would confirm that he 
and I and our colleagues are working hard in other parts of the 
world, particularly in Latin America, to bring countries closer 
to the kind of justice system that we recognize. The Mexicans 
achieved a major milestone in the signing into law of a 
transformation of their justice system just yesterday. So we 
recognize the issue that you raise, the ability to have justice 
not just done but to be seen to be done in a public way, to 
have the accused have the presumption of innocence--the things 
that are part of a code law system.
    But it is used effectively in parts of the world where I 
think we feel comfortable appearing as accused in courts such 
as Europe.
    Mr. Lynch. Thank you, Ambassador.
    Mr. Swartz.
    Mr. Swartz. Yes. Thank you, Mr. Congressman. I would 
certainly join Ambassador Johnson in that it is a long-term 
process to move courts from an accusatorial to an adversarial 
system. We have had experience doing that through our DOJ 
prosecutors on the ground in other countries. Certainly, the 
prosecutors we have in place in Afghanistan are interested, 
within the constraints of existing Afghan law, to advise how an 
adversarial system could be put in place and how that can 
advantage the citizens of Afghanistan.
    Mr. Lynch. Thank you.
    Mr. Chairman, I yield back. Thank you.
    Mr. Tierney. Thank you.
    Mr. Shays.
    Mr. Shays. I am going to be going.
    Mr. Tierney. Mr. Moran.
    Mr. Moran. Thanks very much, Mr. Chairman.
    It seems to me that there are three bottom line issues here 
with regard to our role in Iraq. Ever since we concluded 
Charlie Wilson's war by enabling the Afghan people, themselves, 
to rout the Russians from what had been a brutal occupation, we 
have not made Afghanistan a sufficient priority. We have said 
that time and again, and yet it doesn't change. I can tell you 
that every single dime that this administration has ever 
requested for Afghanistan has been granted by the Defense 
Appropriations Committee, every dime. Never refused anything 
that has been requested, in fact, by any agency, not just by 
DOD but by State, Justice, you name it.
    Maybe there are some problems in terms of the pipeline of 
money, but I don't think that is a sufficient excuse.
    The second, of course, is that, in fact, because of it not 
being a sufficient priority, there have been insufficient 
resources. There is no question that, had we put resources into 
following up that victory over the Russians and to the 
infrastructure of that country, we could have sustained the 
government, we could have prevented the fractionalization by 
the tribal war lords, and ultimately from the Taliban from 
taking over.
    We did not invest. We turned our back. There is still 
inadequate resources being developed to Afghanistan, and it 
seems to me, as this committee--and it has been a bipartisan 
point that this committee continues to make--this is the war we 
have to win, maybe not in the traditional military sense, 
because I am not sure there is a finite number of Taliban to 
beat, but we have to win it, and it is going to have to be won 
on a number of planes.
    But the third is what I would like to address, particularly 
to General Wilkes.
    It seems to me there has been a misplaced responsibility. 
In our trips and reading and talking with the Afghan people, it 
is, again, a matter of establishing civil society, and 
particularly the police.
    Now, when the decision was made by this administration to 
give DOD the responsibility, the principal role over the 
establishment of an effective police program in that country, I 
think that was a mistake. In fact, we have gotten feedback that 
supports that contention. The International Crisis Group said 
that the U.S. decision to give the leading role in its police 
programs to the Department of Defense has blurred the 
distinction between the military and police. The police seem to 
be conflicted between their counterinsurgency responsibilities 
and their main task of working with and protecting communities.
    You could have predicted that would happen if DOD had the 
principal organizational responsibility, because DOD's role is 
not to police communities. It is to win a war ultimately. I am 
afraid that the police have, to some extent, been politicized.
    You know, one of the reasons why our local police are so 
good is that they are not political. They are above politics. 
And yet we are establishing a system where they are inherently 
political because they have to follow the government and deter 
what are considered insurgent forces.
    I am concerned that when we talk to General McNeal, for 
example, the chairman is fond of referring to him as being 
kinetic. He has a problem, and he is very good, but his first 
response is, if you can get a critical mass of Taliban 
together, you bomb them. Then he lets President Karzai know and 
Karzai basically gives him a nice job response. But it was 
clear that if it is going to be sustainable, it is going to 
have to be this local civil society anchored by the Rule of 
Law, which is enforced by local police.
    Having said all of that, I would like to see if I can get 
any kind of response, because when we take a new approach, 
which is bound to happen--whoever is elected in November--
January is going to usher in a new approach to this. I am 
wondering if we don't need to change the responsibility that 
now rests with DOD to establish civil society as well as win 
the military aspects of the conflicts. Is there any response, 
General? And the Ambassador, too, I would be interested.
    General Wilkes. Thank you, Congressman. I appreciate the 
opportunity.
    DOD, as I said in my earlier remarks, is doing this because 
we need to get the training accomplished. It certainly does not 
fall within our normal line of duties, and we are very careful 
to try to not militarize the police, because we respect the 
separation here within the United States and other countries 
out there, and we want that same split in authorities within 
Afghanistan.
    The issue becomes one of security and how do you do this 
training out there. The police, in and of themselves, don't 
have the capacity within Afghanistan to protect themselves, 
protect their district centers, etc., so it does require some 
element of security to be with them, and you have to do this 
through some form, like a PMT in that case.
    When we formed the PMTs, we did that with careful thought 
to make sure that we have a couple of police experts that are 
done through the State Department INL area, the Blackwater 
contract. Those folks are really the lead in the training 
effort for the police.
    There are a couple of translators that go with that team, 
and then the remainder of the team would be military that are 
there for security. The military, part of their training would 
be, let's say, weapons training that the rest of the team would 
be able to accomplish, but that falls well within the 
military's training skills and ability to do that.
    So we are very careful to not do that.
    The second point I would make is that the training piece of 
this is done under CSTC-A, which is a training equipped mission 
set that is run through CENTCOM. It is absent the 
organizational structure of ISAP, so they are not in the war 
fighting command of ISAP, so we try to keep that mission set 
separate. Granted, they are on the same battlefield and they 
will encounter the same insurgents, and some of those skills 
for counterinsurgency do have to be translated to the Afghan 
police, but we are very careful to try to keep that separated, 
realizing your exact point, sir.
    Mr. Moran. Thank you.
    Perhaps Mr. Swartz apparently had one comment, too, but 
whoever wants to. I don't want to abuse my time here.
    Mr. Swartz. Thank you, Congressman. Certainly we greatly 
respect the efforts of the Department of Defense. We think that 
the situation for training police is difficult for exactly the 
reasons the General has suggested. As I noted in my opening 
statement and in my written testimony, we do have a training 
arm intelligence the Department of Justice for police and 
correctional training, ICITAP, the International Criminal 
Investigation Training and Assistance Program. We work very 
closely with the Department of Defense in Iraq, in the Balkans, 
and we have done training around the world. So we are ready, 
willing, and able to assist to the extent that assistance would 
be helpful in this regard.
    Ambassador David Johnson. Congressman, I think that the 
decision that was made to combine this effort was not just one 
based on resources; it was a recognition that the effort to 
train the Afghan National Army and the effort to train the 
police had to be coordinated because of the level of violence 
that they were encountering in their daily work, so this was 
our effort to bring this up to speed as rapidly as we could in 
a coordinated fashion, not, as the General underscore, not to 
militarize the police, but to operate in the same battle space 
in a coordinated way.
    I think that we have had success here. You are right to 
point out to us that we need to make sure that we are 
disciplined about it and make sure that we don't accidentally 
or incidentally turn the police into an adjunct of the 
military, but to help grow them into the type of police service 
that we expect to see in our own communities. But it is 
something we are paying a great deal of attention to.
    Based on the experience that we had before 2005, I don't 
see how we can completely separate these, given the threat 
level that the police, themselves, face in their work. I think 
one illustration of this is the constraint that we have in 
terms of the mentoring system. The civilian mentors and the 
military are not fungible. They are not the same thing. But the 
military are required so that the civilians can, in fact, do 
their work. So I think that is an illustration that we need the 
kind of security that only the military can organically provide 
in order to carry out this mission for the time being.
    Mr. Moran. It is understandable why it was done that way 
initially, but in terms of following up we may want to take a 
different approach. The committee's extraordinarily competent 
staff just pointed out that in the written testimony of the 
State Department's IG, Mr. Ward we just heard from, said, ``A 
number of interviewees expressed concern about the lack of 
clarity as to the role of Afghanistan's police forces as law 
enforcement agents versus a paramilitary role in 
counterinsurgency operations.'' I do think it is a problem, and 
I think, in looking to the future, it is something the 
committee might suggest that we address, and we ought to, I 
think, through the appropriation for Afghanistan.
    But again, Mr. Chairman, thanks for giving this the kind of 
focus that it needs. I really appreciate it.
    Mr. Tierney. Thanks for your participation, Mr. Moran.
    Mr. Shays, you are recognized for 10 minutes.
    Mr. Shays. Thank you very much again, Mr. Chairman. It is 
nice to have Mr. Moran participate in these hearings.
    I want to get to this number of 82,000 for police 
authorized and 80,000 for the Army. Just the fact that the two 
numbers are almost similar is surprising and just tells me that 
it was just a number that somehow people in our government 
decided they would ask for. I need to know why we only need 
80,000 Army and why we only need 82,000 police.
    General Wilkes. Sir, a lot of this came from early 
decisions in the Bahn part of this where they set some basic 
numbers. As you have seen over the last couple of years, given 
that the insurgency is increased, we have continued to review 
this and increase it. In fact, I think what you are going to 
see is discussion here in the near term on the ANA and trying 
to increase the size of that, given the threat out there.
    Mr. Shays. Here is my concern, General: my concern is if 
you can't get the help you need, you ask for less and then 
justify the request. I don't think with a straight face we 
could justify either the 82,000 or the 80,000. I am not going 
to even try to go down that route. I am going to hear your 
statement as saying this is a number under review. Is that 
correct?
    General Wilkes. Yes, sir. Exactly.
    Mr. Shays. Yes. Then I want to go on record as saying this 
is typical of what we did in the bad years in Iraq. We 
underestimated what we needed for police and what we needed for 
the security forces. And I will just make this point to you: in 
the observations we made in Iraq, we said that 325,000 Iraqi 
security force level to be reached on December 31, 2006, is not 
adequate to provide internal security, nor is it adequate to 
counter any external security threat.
    Then this is what the experts testified. The experts 
testified at one of our hearings that successful 
counterinsurgencies have historically required 20 security 
personnel per 1,000 of population, which is, in the case of 
Iraq's 26 million, would be 520,000 security personnel. In the 
case of Afghanistan, we would be talking, with a population of 
32 million, about 640,000.
    I mean, the number isn't even close, and what is alarming 
to me is that says we are going to be there forever because 
they won't have what they need to do what they need to do.
    Now, if we had an honest dialog and we were hearing from 
the administration we can't find 640,000 for a variety of 
reasons--education, training, lack of interest--I mean, in Iraq 
they want jobs. In Afghanistan it is my understanding that we 
don't see a re-enlistment of 50 percent. So it seems to me that 
we are having a dialog about whether we are properly training 
numbers when the numbers seem so, so far off.
    That is my observation. If you want to comment, you can. I 
am not expecting you to.
    Let me ask some other questions.
    In 2008, the U.S. Congress mandated that the Secretary of 
Defense submit to Congress reports detailing progress on 
training the Afghan National Security Forces; however, 
according to GAO, the first of these reports was due at the end 
of April 2008, but it has not been delivered. Has the 
Department of Defense completed the 2008 report? If not, why 
not? And when should Congress expect to see this report?
    General Wilkes. Sir, the report is in its final review and 
should be signed out shortly.
    Mr. Shays. OK. Are you on schedule to complete the next 
installation, which is due 180 days after the end of April 
2008?
    General Wilkes. Yes, sir. Being that this was the first 
report, it took a little bit longer to put the pieces together, 
and we will be on schedule for the 180-day review.
    Mr. Shays. I am going to just end by asking: could you 
explain to me or anyone here about the break-in and the release 
of over 700, I think, prisoners, over 1,000? Some were Taliban. 
Just tell me what happened, and how many ultimately were let 
loose, and why.
    Ambassador David Johnson. Congressman, that was a 
coordinated attack on a prison by a paramilitary group. It 
began with a large explosion at the entrance. While we in the 
U.S. Government have not been active in that prison, it is 
something that the Canadians have taken on, because it is an 
area where they have been working. I think it is the kind of 
attack, given the size of the explosion, that would not have 
been possible for the corrections people to, if you will, 
defend against. It would have had to have been done by a----
    Mr. Shays. Were the corrections all Afghans, or were there 
some Coalition forces?
    Ambassador David Johnson. I believe they were all Afghan, 
Congressman. I am not certain, and I can find that out, but I 
don't believe there were any Coalition personnel at the 
facility at the time.
    Mr. Shays. Were there contingency plans that were in 
anticipation of this kind of attack, or was this somehow not 
something that was prepared for?
    General Wilkes. Sir, my understanding is that the Afghan 
government has responded to that under their contingency plans. 
Mismulakahn has deployed down there to take over the situation. 
This is within 6 hours of it happening. They have, I believe, 
transported a candac of response forces, Afghans down there, 
about 700 or so Afghan National Army to assist and stabilize 
that area.
    Mr. Shays. Was it determined to be, in part, an inside job?
    General Wilkes. Sir, the investigation is still ongoing, 
but I think it is going to have to probably have been something 
coordinated both inside and outside.
    Mr. Shays. From the outside looking in this seems 
catastrophic. Any one of these Taliban could potentially kill 
many Coalition forces and Afghans. Any one. The fact that such 
a huge number got out is beyond my comprehension, frankly. Tell 
me the consequences of this successful effort on the part of, 
frankly, the enemies of the Afghan government.
    General Wilkes. Sir, the potential is that you put another 
I guess 380-ish or so Taliban back on the streets. The efforts 
now undergoing will be trying to round all those prisoners up 
again and get them back into confinement somewhere.
    If we are unsuccessful, then obviously you have those 
fighters back out there against the Coalition.
    Mr. Shays. Well, I will end by saying in the last year-and-
a-half, when I spoke to our Government officials, they would 
say things are going really well in Iraq and we are concerned 
about Afghanistan. That is what I have heard for the last year. 
When I look at these numbers of 80,000 Army, 80,000 police, I 
am just struck with the fact that we are so far behind in 
Afghanistan that it is more than alarming. I mean, I don't see 
anything that makes me feel encouraged.
    I think the thing that concerns me the most is that some of 
this appears to be extraordinarily bad planning, bad 
anticipation.
    I have three constituents, they are all from the same 
family, and two of them are CEOs of Fortune 500 companies and 
the other is a very financially successful financier. I asked, 
Why are you as a family so successful? All they said, they 
think their biggest reason for success is they all deal with 
reality, not what they want it to be but what it is. And it 
just strikes me that we are not dealing with reality in 
Afghanistan. I hope that you, General, are able to get the 
troops together to just totally rethink this.
    If you have to come back to Congress and say 80,000 is way 
off and we need 200 or 300, I think that is what you owe our 
troops, what you owe our citizens, and what you owe Congress.
    Mr. Tierney. Thank you, Mr. Shays.
    None of you gentlemen are responsible for this, but I think 
the underlying focus of this whole hearing--not focus of the 
hearing, but result of the hearing--is that at one point we 
took our eye off the ball. We had activity going in Afghanistan 
and the Pakistani area and we got diverted over to Iraq, and 
the consequences are 7 years later we are starting to do things 
that should have been done six or 7 years ago. Certainly, if 
they were allocated for some other international entity or 
other country to do it, we should have noticed well before we 
finally did that things weren't going right. That falls right 
in the lap of this administration, and I don't think there is 
any way they are going to get around that.
    But the fact of the matter is that is the consequence of 
that type of activity, of moving over to Iraq when we did and 
the way we did, but I want to get back to one other point.
    We talked about the military mentors that are needed, some 
2,400, 2,600, and we are short a substantial number of those, 
and the assessment by the Department of Defense is that we are 
short because the priority was to put them in Iraq, and the 
priority to put the equipment was in Iraq on that basis.
    Where are we going to get the remaining military mentors 
that we need in a reasonably short period of time? Are they 
going to come because they are going to get redeployed out of 
Iraq? Are they going to come because they are now in Bosnia, or 
Korea, or Japan, or Germany, or somewhere on our continent? Are 
they going to come from an international source? If you could 
clarify, gentlemen, that for me: where are they going to come 
from, and when are they going to get there?
    General Wilkes. Sir, that is the process that we are 
undertaking right now for review and where are they going to 
come from. We have asked our allies. We are still looking at 
fulfilling the CJ SOAR requirements, which are three 
battalions. That is roughly 2,500 troops there, which would 
help with the security situation. And we are continuing to go 
through--we have put in the 27 Marines, which was about 1,000 
here a few months ago. They will be there for another 5 or 6 
months. And we are looking at how we are going to replace 
those.
    So all of that is undergoing right now, and hopefully we 
will come up with solutions here in the next couple months to 
it.
    Mr. Tierney. Hopefully. I would assume that part of the 
problem with the prison escape was also related to a faulty 
design or construction of that building, where it was done, how 
it was done, that somebody could, in fact, get a bomb close 
enough to take out part of the structure and allow people to 
escape. My concern now is: are we looking and reviewing any 
other prison facilities there to correct that kind of a 
problem? Ambassador.
    Ambassador David Johnson. We have an ongoing program 
looking at prison facilities, providing them with engineering 
assistance, providing them with technical training for guard 
training, but there are a number of prisons throughout 
Afghanistan. I don't want to be misleading that we are looking 
at every single one of them or that we have already, but it is 
a program that we are also focused on.
    Mr. Tierney. Now, I heard General say that the GAO 
recommendation for a plan and a strategy is about to be 
presented to us in the near future. Is that going to meet the 
satisfaction of the GAO, going to hit the criteria that they 
laid out in their recommendation?
    General Wilkes. Sir, I think there are two separate things 
here. The 12/31 report on ANSF development is, I believe, what 
Mr. Shays was asking about. That will come fairly soon. I am 
not sure that will totally answer what the GAO report suggested 
they needed.
    I will tell you that our take on that was that, when we did 
the review back in November 2006, the strategic review element, 
we provided all the necessary detail and guidance to the forces 
in the field to start development of this ANSF, and that their 
operations plan that they produced is sufficient to provide you 
with all the milestone markers that you need to track where 
they are in this in the CM4 through CM1 rating system, and we 
do provide that to congressional committees monthly.
    Mr. Tierney. That report provides to us when you expect to 
get them from C4 to C1, what timeframe or whatever?
    General Wilkes. Yes, sir. We call it a star chart. It gives 
you a timeframe on that. Absolutely.
    Mr. Tierney. I suspect the you and the GAO are just having 
a disagreement--they want more and you don't want to give it.
    General Wilkes. Well, it is not that we don't want to give 
it, sir; we think that we have given sufficient guidance, and 
they don't. Really, it is kind of a difference in format 
really. A lot of this stuff is done through PowerPoint, and 
what the GAO wanted was a very thick report on it, and it is 
just difference in the way management is done.
    Mr. Tierney. Sounds way too simple. We are going to have to 
take a look at that. Is there any possibility that you could 
work with GAO to try and show how your information that they 
are looking for is really in your PowerPoints and get back to 
us and show us how that exists?
    General Wilkes. Yes, sir. We have provided all that detail 
with them during the report process. I met with the team on 
several occasions here in the last month on this and other 
issues, and we are willing to provide them whatever we need to.
    Mr. Tierney. Because the only other alternative we have is 
to meet with GAO, get them to specify what they think is still 
missing, and ask you to followup in responses to written 
questions, which seems like an awful lot of work to get to a 
relatively simple end to this.
    General Wilkes. Yes, sir.
    Mr. Tierney. So we will get it that way if we have to get 
it that way, and I will ask you to respond to the written 
questions if necessary, but I would rather have you sit down 
with Mr. Johnson and his people and iron that out and get it in 
a form that we can all use.
    General Wilkes. Absolutely. We can do that, sir.
    Mr. Tierney. Thank you.
    Last, corruption. What I hear over and over again when we 
visited Afghanistan from people in all different walks of life 
is nobody is going to have confidence in the government over 
there until some of the people that appear to be connected, 
whether it is to the President or other officials in 
government, start getting arrested and prosecuted. What are we 
doing to encourage that to happen and to give the support 
necessary for that to be successful?
    Ambassador David Johnson. Mr. Chairman, Mr. Swartz also 
talked about this issue, as well, in some remarks that he made. 
We are working to help the Afghans build a justice system to 
provide them with training that they need. But you are asking--
--
    Mr. Tierney. I am talking about the question of who is 
going to give them the will to use the justice system are the 
people that most Afghans perceive are getting a walk here in 
heroin trade and elsewhere.
    Ambassador David Johnson. I understand your question. I 
think giving them the capability then gives them the 
opportunity to do that. Some of the issues that Bruce alluded 
to having for some of them who have committed crimes with a 
locus in the United States gives us an opportunity to 
prosecute.
    We have had a number of prosecutions, a number of 
successful ones, but I think that there is a perception, and in 
some sense a reality, that there are not prosecutions at the 
very highest level. That is the missing ingredient.
    Mr. Tierney. You look to Mr. Swartz to find out what we are 
going to do about that?
    Ambassador David Johnson. No, I am not pointing. I was just 
suggesting that this might take longer than both we and the 
Afghan people might like.
    Mr. Tierney. Thank you.
    Mr. Swartz, would you like to make a comment on that point?
    Mr. Swartz. Yes, Mr. Chairman. It is certainly not a simple 
task, as Ambassador Johnson suggests, but we think that a key 
to this is precisely the type of vetted unit of investigators 
and prosecutors we set up in the context of the 
counternarcotics setting, and we think there may be some 
utility in extending that to the anti-corruption setting, since 
it is simply that kind of situation with the guidance from 
Justice prosecutors that allows some confidence that high-value 
and high-level corrupt officials will be prosecuted.
    Mr. Tierney. While we have our friends here from the 
Department of Interior and from the Parliament, are there any 
laws that need to be passed to ensure that there is no 
interference from those high-level individuals in the process?
    Mr. Swartz. Mr. Chairman, I think that is something I will 
have to take back for the record, but I think it is an 
important issue to determine. In the counternarcotics context, 
as I mentioned, the passage of the narcotics law was central in 
that regard and has provided some path in toward prosecuting 
corruption, simply because there is a close nexus between 
narcotics and corruption in Afghanistan. But we will look at 
that.
    Mr. Tierney. If you would. If we have people looking at 
that, we would be happy to provide at least our take on it to 
our colleagues from Afghanistan, and then they can either agree 
or disagree, but at least the assessment would be there and 
that would be helpful.
    Thank you.
    Mr. Swartz. Thank you.
    Mr. Tierney. Mr. Shays.
    Mr. Mark Ward. Mr. Chairman, could I just add something on 
that last question?
    Mr. Tierney. Yes, go ahead.
    Mr. Mark Ward. Not going directly to your question of 
whether corrupt officials are being removed and prosecuted, but 
there is a new institution that has been established in 
Afghanistan, the Independent Directorate for Local Governance, 
that has been charged by President Karzai with the authority to 
remove Governors that are found to be corrupt and replace them 
with Governors. They have agreed now on a new standard, a more 
transparent standard about what it takes to be qualified to be 
a Governor. So at least we are beginning to see some Governors 
being removed. Now, prosecuted is another question, but at 
least seeing them removed will begin to restore people's 
confidence in their public officials.
    Mr. Tierney. Apparently it is started in some part. Thank 
you.
    Mr. Shays.
    Mr. Shays. Thank you. Mr. Chairman, I understand with your 
help, as well, that we have some political leaders as well as 
leaders from the ministries of Afghanistan here. Any Member is 
allowed to submit additional information for the record. Is 
that correct?
    Mr. Tierney. We are happy to entertain it. We give 5 days 
for additional written materials on the record.
    Mr. Shays. Correct. So what I would like to say to our 
guests who are here from Afghanistan, if they would like to 
give this committee any documentation about what they have 
heard today and their reaction to the number of police that you 
need or the number of security forces, if you provide me that 
information I will, out of courtesy and with the chairman's 
permission, submit it to the committee for part of the record, 
and then I know our staff will consider it.
    Mr. Tierney. If the gentleman will yield on that?
    Mr. Shays. Yes.
    Mr. Tierney. Our guests have already been invited to do 
just that before we had the hearing on an informal basis. I 
think, without objection, we would be happy to enter that on 
the record as a result of your recommendation, as well.
    Mr. Shays. Terrific. That would be great. So any of our 
guests, if they would like to submit something for the record 
based on this hearing, I think it would be very helpful.
    I would say the part that I agree with you, Mr. Chairman, 
in terms of taking our eye off the ball in Afghanistan as it 
relates to Iraq, is that we may not have put the resources or 
our own personnel in Afghanistan where we needed to, but the 
part that it doesn't apply is that we have experts in the 
Department of Defense who know in theory what you need under 
certain circumstances, and the documents that we have from DOD 
do not seem to be in line with what the request should have 
been, and that part to me cannot be an excuse to DOD or State 
or anyone else that somehow the war in Iraq has been a 
distraction. We know there are basic principles that should 
apply to Afghanistan or Iraq, and in the case of Afghanistan 
the asked-fors were not the proper ask-fors, and we should have 
had the proper ask-fors, and if then there was a big disconnect 
with what we could provide or what we did provide, that would 
be part of the record and it would be far better to have that 
be, I think, the record.
    In other words, it is important for people in the 
administration to ask Congress for what they need, not what 
they think they are going to get from the administration or 
from Congress.
    I think it is an obvious statement, but I just want to put 
it on the record.
    Mr. Tierney. That is a point well taken. I guess our fear, 
our combined or joint fear on that, would be it would just 
exacerbate the shortage of things that we have, because the 
probable need for additional police and security.
    Mr. Swartz.
    Mr. Swartz. Mr. Chairman, if I might supplement my answer 
on the corruption, I have just been passed a draft law from 
earlier this week that is apparently going to be introduced in 
Afghanistan creating a high-level office on anti-corruption, 
and we think that this is well worth supporting, simply because 
it, among other things, would bring Afghanistan into compliance 
with the U.N. Convention Against Corruption.
    Mr. Tierney. That is already filed with the Parliament?
    Mr. Swartz. I believe it is going to be submitted to 
Parliament.
    Mr. Tierney. Great, so our friends and colleagues.
    First of all, I want to thank all of our witnesses on both 
panels, and the ones on the first panel that were kind enough 
to stay for the second panel--I appreciate that, because we 
will get some feedback on that--all four of you gentlemen for 
testifying and answering our questions. We may, as I said, have 
more, in which case I know you will be kind enough to respond 
if we get back on that.
    We thank you for your service to the country and your 
willingness to grapple with what is a serious and huge 
undertaking. We fully appreciate that. Whatever comments that 
were made here that might have seemed critical today are 
probably frustration, and some critiquing of just where we find 
ourselves 7 years into this, and a need to get this moving as 
quickly as possible and as efficiently as possible in order to 
be successful.
    A final word, let me thank again our colleagues from 
Afghanistan who were kind enough to join us here today to share 
their ideas with us before the hearing, and any ideas you want 
to share afterwards will be greatly appreciated. We wish you 
all the very best of luck.
    Thank you all. This hearing is over.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
